                   UNITED STATES DEPARTMENT OF AGRICULTURE
                             OFFICE OF INSPECTOR GENERAL

                                 Washington D.C. 20250



    DATE:   March 13, 2000

REPLY TO
 ATTN OF:   09601-1-Te

 SUBJECT:   Electric Generation and Distribution Borrower Investments

      TO:   Christopher McLean
            Acting Administrator
            Rural Utilities Service

    ATTN:   Sherie Hinton Henry
            Director
            Financial Management Division


This report presents the results of our audit of Rural Utilities Service’s
(RUS) electric generation and distribution borrower investments. RUS’ written
response to the draft report is included as exhibit M, and RUS’ comments and
the Office of Inspector General position concerning the written response are
set forth in the Recommendations section of the report.

We agree with RUS’ planned corrective action for Recommendation No. 1;
however, additional information is requested to reach agreement with the
management decision. We request RUS to reconsider its position regarding
Recommendation No. 2. While the agency response is generally supportive of
borrower economic development efforts, the RUS response cites changes in the
economic climate and stability of the electric utility industry as reasons to
avoid specific RUS directives aimed at measuring any changes in borrower
investments in rural America. We disagree.

As stated in the RUS response, the uncertain economic climate is likely to
force RUS borrowers to reevaluate long-term investments. We believe that the
coming reassessment and associated shifts in investment practices will offer
an unprecedented opportunity for investment in rural utilities infrastructure,
to include such items as fiber optic phone lines to facilitate internet
connections and emerging technologies to bring the full range of television
programming to rural America.

Please furnish the information needed to reach agreement on the management
decisions for Recommendation Nos. 1 and 2 by May 1, 2000. Please note that
Departmental Regulation 1720-1 requires a management decision for all
recommendations within a maximum of 6 months from the date of report issuance.
Please follow your internal agency procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer.
Christopher McLean                                                           2



If you have any questions, please call me at 720-8001 or have a member of
your staff contact James R. Ebbitt, Assistant Inspector General for Audit,
at (202) 720-6945.




ROGER C. VIADERO
Inspector General
         RURAL UTILITIES SERVICE
        ELECTRIC GENERATION AND
  DISTRIBUTION BORROWER INVESTMENTS
            WASHINGTON, D.C.
       AUDIT REPORT NO. 09601-1-Te

              MARCH 2000




UNITED STATES DEPARTMENT OF AGRICULTURE
   OFFICE OF INSPECTOR GENERAL - AUDIT
            SOUTHWEST REGION
    ROOM 324, FEDERAL OFFICE BUILDING
          101 SOUTH MAIN STREET
           TEMPLE, TEXAS 76501
                            EXECUTIVE SUMMARY
                       ELECTRIC GENERATION AND
                 DISTRIBUTION BORROWER INVESTMENTS
                          AUDIT NO. 09601-1-Te



                                     The Rural Electrification Act (RE Act),
        RESULTS IN BRIEF             as   amended in December 1987, allows
                                     electric generation and distribution
                                     borrowers to make investments, loans, and
                                     loan guarantees up to 15 percent of their
           total utility plant (TUP) value without prior approval of the Rural
           Utilities Service (RUS).1    Congress amended the RE Act to allow
           electric borrowers more latitude in making outside investments. It
           increased the limit of such investments without RUS approval from
           3 percent to 15 percent of TUP. While the law did not restrict the
           type of investments that could be made, the Congressional Record
           stated the increase was to provide an incentive for electric
           borrowers to make investments in rural areas. We initiated this
           review to determine the extent of borrower investments and the
           extent that those investments were in rural development projects.

               We found that the Congressional action to allow electric borrowers’
               to make investments up to 15 percent of TUP without prior RUS
               approval has not stimulated increased investments in rural areas.
               In a 1994 audit, the Office of Inspector General (OIG) reported that
               less than 1 percent of total investments were in rural areas. This
               review disclosed essentially the same percentage. We statistically
               estimated, based on our analysis of calendar year (CY) 1997 data,
               that of the $10.9 billion in total investments reported by
               787 borrowers, only about 90 borrowers invested about $61 million
               in rural development (about one-half of 1 percent of reported
               investments).

               About three-fourths of RUS borrowers who are current on their
               mortgage, appear to have the ability to continue to pay their debt,
               and charge their customers reasonable kilowatt rates are exempted by
               RUS regulations from the 15 percent investment rule.             RUS
               regulations also permit other borrowers to exclude certain safe type
               investments from the 15 percent limit. We statistically estimated
               that 358 of 787 electric borrowers had total investments in excess
               of 15 percent of TUP. We estimated that these 358 borrowers had
               total investments of $7.4 billion of which $3.2 billion was in
               excess of 15 percent of TUP.




1
 RE Act, section 312, Use of Funds, dated December 22, 1987.



               USDA/OIG-A/09601-1-Te                                        Page i
                                                  MARCH 2000
         Since very little of the total investments (about one-half of
         1 percent) have been made in rural development projects, RUS
         policies and procedures have not significantly helped foster rural
         development as intended by Congress. Instead, RUS borrowers have
         used discretionary funds to invest in businesses located in urban
         areas and a variety of securities and other commercial paper.

                                   We  recommend that RUS coordinate with
KEY   RECOMMENDATIONS             Congress   to develop a strategy to
                                  encourage electric borrowers to make
                                  discretionary investments in rural areas
                                  as intended by Congress.         We also
        recommend that RUS include in the Government Performance Review Act
        (GPRA) Annual Performance Plan a performance measure to assess the
        increase in borrower investments in rural America.

                                   RUS agreed to strategically develop and
                                   implement policies and procedures to
 AGENCY RESPONSE                   strongly encourage borrowers to meet the
                                   intent of Congress.        However, RUS
                                   disagreed that borrower investments in
                                   rural development should be included as a
         GPRA performance measure.    A copy of RUS’ complete response is
         included in exhibit M.

                                   We agree with RUS’ corrective action plan
                                   to strategically develop and implement
       OIG POSITION                policies and procedures to strongly
                                   encourage borrowers to invest in rural
                                   development.    We requested additional
                                   documentation   showing   the  specific
         actions taken or planned to accomplish this goal and the specific
         timeframe(s) within which the actions will be completed.

         In order to evaluate the effectiveness of the agreed-to strategic
         action plan, RUS must measure the impact of the policies and
         procedures implemented to determine whether rural development
         investments increased.    Since the corrective actions must be
         measured to determine effectiveness in increasing borrower
         investments in rural development, we continue to believe that such
         performance measures should be included in RUS’ annual GPRA plan.
         We requested RUS to reconsider its position and include in its
         annual GPRA plan a performance measure to assess the increase in
         borrower’s investments in rural America.




         USDA/OIG-A/09601-1-Te                                      Page ii
                                     MARCH 2000
TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . .         i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1

      BACKGROUND   . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

      OBJECTIVES   . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    5

      SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     5

      METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     6




FINDINGS AND RECOMMENDATIONS         . . . . . . . . . . . . . . . . . . . .    7

CHAPTER 1. RE ACT AMENDMENTS HAVE NOT FOSTERED RURAL
      DEVELOPMENT INVESTMENTS . . . . . . . . . . . . . . . . . . . . . . .     7

     BORROWERS NOT INVESTING IN RURAL DEVELOPMENT     . . . . . . . . . . . .   7

     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . 14




            USDA/OIG-A/09601-1-Te                                       Page iii
                                         MARCH 2000
TABLE OF CONTENTS



EXHIBITS
    A - SUMMARY OF MONETARY RESULTS . . . . . . . . . . . . . . . . . . . 17

    B - ELECTRIC BORROWERS’ INVESTMENTS IN RURAL DEVELOPMENT
        PROJECTS . . . . . . . . . . . . . . . . . . . . . . . . . . .     18

    C - ELECTRIC GENERATION BORROWERS’ TOTAL INVESTMENTS   . . . . . . .   19

    D - ELECTRIC GENERATION BORROWERS’ INVESTMENTS IN EXCESS
        OF 15 PERCENT OF TOTAL UTILITY PLANT VALUE . . . . . . . . . . . 22

    E - NONEXEMPT ELECTRIC DISTRIBUTION BORROWERS’ TOTAL
        INVESTMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

    F - NONEXEMPT ELECTRIC DISTRIBUTION BORROWERS’
        INVESTMENTS IN EXCESS OF 15 PERCENT OF TOTAL
        UTILITY PLANT VALUE . . . . . . . . . . . . . . . . . . . . . . . 27

    G - EXEMPT ELECTRIC DISTRIBUTION BORROWERS’ TOTAL
        INVESTMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

    H - EXEMPT ELECTRIC DISTRIBUTION BORROWERS’ INVESTMENTS
        IN EXCESS OF 15 PERCENT OF TOTAL UTILITY PLANT VALUE   . . . . . . 32

    I - STATISTICAL SAMPLE DESIGN . . . . . . . . . . . . . . . . . . . . 34

    J - STATISTICAL PROJECTIONS . . . . . . . . . . . . . . . . . . . . . 36

    K - ANALYSIS OF GENERATION AND DISTRIBUTION BORROWERS . . . . . . . . 39

    L - EXAMPLE ELECTRIC BORROWER INVESTMENTS . . . . . . . . . . . . . . 42

    M - RUS WRITTEN RESPONSE TO THE DRAFT REPORT   . . . . . . . . . . . . 45




           USDA/OIG-A/09601-1-Te                                      Page iv
                                      MARCH 2000
ABBREVIATIONS
CFR      -   Code of Federal Regulations
CY       -   Calendar Year
GPRA     -   Government Performance Review Act
KWH      -   Kilowatt Hour
NRUCFC   -   National Rural Utilities Cooperative Corporation
OGC      -   Office of the General Counsel
OIG      -   Office of Inspector General
RE Act   -   Rural Electrification Act of 1936, as amended
REA      -   Rural Electrification Administration
RUS      -   Rural Utilities Service
TUP      -   Total Utility Plant
USDA     -   U.S. Department of Agriculture




               USDA/OIG-A/09601-1-Te                            Page v
                                           MARCH 2000
                  INTRODUCTION



                             The  Rural Electrification Administration
BACKGROUND                   (REA)  was established in 1935 and became
                             part     of   the    U.S. Department   of
                             Agriculture (USDA) in 1939. The REA made
                             insured and guaranteed loans to electric
  cooperatives in order to extend electric generation and transmission
  services to rural areas.      Statutory provision for the REA is
  included in the Rural Electrification Act (RE Act) of 1936, as
  amended. On October 13, 1994, the Rural Utilities Service (RUS) was
  established by Public Law 103-354, Federal Crop Insurance Reform and
  Department of Agriculture Reorganization Act of 1994. RUS assumed
  the duties to administer the electric and telecommunication programs
  of the former REA and the water and waste programs of the former
  Rural Development Administration.

  RUS serves a leading role in improving the quality of life in rural
  America by administering electric, telecommunications, and water and
  waste programs in a service oriented manner. RUS provides policy
  and planning, in addition to financial and other services, to
  utilities serving rural areas.      The public-private partnership
  between RUS and local utilities assist rural communities in
  developing local infrastructure, which support development and
  improve quality of life in rural America. RUS makes and guarantees
  loans to electric generation (or power supply) and electric
  distribution borrowers serving rural areas under the authority of
  the RE Act of 1936, as amended. These loans and guarantees are made
  to borrowers generally for a period of 35 years.       RUS electric
  borrowers are either electric generation or electric distribution
  cooperatives. Electric generation cooperatives generate and/or sell
  electricity to electric distribution cooperatives who in turn sell
  the electricity to consumers.

  From 1973 to 1993, the REA insured loan interest rate was generally
  5 percent; however, the Administrator could approve a 2 percent
  interest rate in hardship cases. In 1993, the standard interest
  rate was adjusted to either the municipal rate (based on the current
  market yield of outstanding municipal obligations) or a hardship
  rate of 5 percent.

  On December 22, 1987, the RE Act was amended by adding Section 312,
  "Use of Funds." This new section allowed electric borrowers to




  USDA/OIG-A/09601-1-Te                                        Page 1
                               MARCH 2000
               invest up to 15 percent of the value of their TUP2 without prior
               approval of REA (now RUS).    Prior to this amendment, a borrower
               could invest funds up to 3 percent of their TUP value without prior
               approval from the agency.    This 3 percent contractual limit was
               incorporated as a clause in the borrowers’ mortgage agreement.

               The Section 312 amendment to the RE Act did not restrict the type of
               investments, loans, or loan guarantees that borrowers could make.
               However, the Congressional Record stated that the purpose of
               increasing the unrestricted investment limit to 15 percent was to
               provide an incentive for electric borrowers to make investments in
               rural areas where they were located. In stating its policy that
               implemented the amendment, RUS assumed that borrowers would use the
               new latitude afforded them by Section 312 of the RE Act primarily to
               make the needed investments in rural communities to promote business
               development and economic diversification projects.

               During debate on the Section 312 amendment, Congress expressed
               concerns that borrowers were restricted in their ability to make
               needed investments in infrastructure projects (such as water and
               waste systems, garbage collection services, etc.) or in job creation
               activities (such as providing technical, financial, and managerial
               assistance) as well as other activities to promote business
               development in rural communities. In addition, Congress emphasized
               that this new level of investments should not in any way put Federal
               Government funds at risk or impair the borrower’s ability to repay
               their debts.

               RUS implemented the Section 312 amendment with a general regulation
               published in Title 7, Code of Federal Regulation (CFR), part 1717,
               subpart N. Subpart N specified that borrowers may invest their own
               funds in any investments, loans, or guaranteed loans without prior
               approval as long as the borrowers’ total investments, loans, or loan
               guarantees were equal to or less than 15 percent of their TUP value.
               Subpart N provided for exclusions of certain investments from the
               calculation of a borrower’s investments to TUP percentage ratio and
               also exempted specific borrowers from obtaining prior approval to
               invest over 15 percent of their TUP value.

               RUS instructions for calculating the percent of investments to TUP
               is contained in the "Guide for Preparing Financial and Statistical
               Reports for Electric Distribution Borrowers" (RUS Bulletin 1717B-2)
               and the "Guide for Preparing Financial and Statistical Reports for
               Power Supply Borrowers and Electric Distribution Borrowers with
               Generating Facilities" (RUS Bulletin 1717B-3).       As the normal
               procedure for calculating the percent of investments to TUP, the
               bulletins state that borrowers should use the amount of funds in
               "includable" investments added to the balance of funds in their loan
               guaranties and divide this total amount by the TUP value resulting
               in the investment ratio expressed as a percent.




      2
        Total Utility Plant (TUP) Value is defined as the sum of the borrower’s Electric Plant
Accounts and Construction Work in Progress - Electric Accounts, as such terms are used in the
Uniform System of Accounts (Title 7 CFR 1717.652, Definitions, dated September 21, 1995).



               USDA/OIG-A/09601-1-Te                                                      Page 2
                                                  MARCH 2000
               RUS regulations3 allowed electric borrowers to make unlimited
               investments in the following "excludable" investment areas:

                 (1) Securities or deposits issued, guaranteed, or fully insured as
                 to payment by the U.S. Government or any agency thereof;

                 (2) capital term certificates, bank stock, or other similar
                 securities of the supplemental lender which have been purchased as
                 a condition of membership in the supplemental lender or as a
                 condition receiving financial assistance from such lender, as well
                 as any other investment made in, or loan made to, the National
                 Rural Utilities Cooperative Finance Corporation, the St. Paul Bank
                 of Cooperatives, and Agriculture Cooperative Bank;

                 (3) patronage capital allocated from a power supply cooperative of
                 which the borrower is a member;

                 (4) patronage capital allocated from an electric distribution
                 cooperative to a power supply borrower;

                 (5) invest or lend funds derived directly from grants which the
                 borrower is not obligated to repay, regardless of source or
                 purpose of the grant loans received from or guaranteed by any
                 Federal, State, or local government program designed to promote
                 rural economic development; and

                 (6) loans made by the borrower and guaranteed by an agency of
                 USDA, up to the amount of principle whose repayment, with
                 interest, is fully guaranteed; and unlimited investments and loans
                 to finance the following community infrastructures that serve
                 primarily consumers located in rural areas and guaranteed debt
                 issued   for    the   construction   or   acquisition    of   such
                 infrastructures, up to an aggregate amount of such guarantees not
                 to exceed 20 percent of the borrower’s equity:      (A) Water and
                 waste disposal systems, (B) solid waste disposal systems,
                 (C) telecommunication and other electronic communication systems,
                 and (D) natural gas distribution systems.

                 In each of the above four infrastructures, if the system is a
                 component of a larger organization other than the borrower itself,
                 the borrower must certify annually that a majority of the gross
                 revenues of the larger organization came from customers of the
                 systems that were located in rural areas.

               Also excluded from the calculation of investments, loans, and loan
               guarantees made by borrowers are:

                 o    Amounts properly recordable in Account 142 Customer Account
                      Receivable and Account 143 Other Accounts Receivable;

                 o    any investment, loan, or guarantee that the borrower is
                      required to make by an agency of USDA, for example, as
                      a condition of obtaining financial assistance for itself
                      or any other person or organization;




      3
        Title 7, Code of Federal Regulations, part 1717, subpart N, Investments, Loans, and
Guarantees by Electric Borrowers, dated September 21, 1995.



               USDA/OIG-A/09601-1-Te                                                          Page 3
                                                  MARCH 2000
 o    investments included in an irrevocable trust for the
      purpose of funding post-retirement benefits of the
      borrower’s employees;

 o    reserves required by a reserve bond agreement or other
      agreement legally binding on the borrower that are
      dedicated to making required payments on debt secured
      under the RUS mortgage, not to exceed the amount of
      reserves specifically required by such agreements; and

 o    investments included in   an irrevocable trust approved by
      RUS and dedicated for      the payment of decommissioning
      nuclear   facilities.        The  regulation  contains   a
      grandfather exclusion     for all amounts of individual
      investments, loans, and   guarantees excluded by RUS as of
      February 16, 1995.

Electric borrowers compute the ratio of investments to TUP per
agency instructions and report this ratio on the annual financial
reports submitted to RUS. RUS reviews the ratio calculations shown
on the annual reports and contacts any nonexempt borrower whose
ratio exceeds 15 percent. It is RUS policy to work with any such
nonexempt borrower to determine the best course of action to bring
the borrower in compliance.

RUS also exempted specific borrowers from any controls in their
investment of funds that are used for investments, loans, and loan
guarantees under Title 7 CFR 1717.656 with the exception of
investments, loans, and loan guarantees made to extend, add to, or
modify a borrower’s electric system. Borrowers remain exempt if
they are in compliance with all provisions of its RUS mortgage, RUS
loan contract, and any other agreement with RUS and:

 o    The average revenue per kilowatt (KWH) for residential
      services received by a borrower during the two most recent
      calendar years does not exceed 130 percent of the average
      revenue per KWH for residential service during the same period
      for all residential consumers located in the State or States
      served by the borrowers.    (Electric distribution borrowers
      only.)

 o    In the most recent calendar year for which data are
      available, the borrower achieved an operating TIER of at
      least 1.0 and an operating debt service coverage of at
      least 1.0 based on the average of the two highest ratios
      achieved in the three most recent calendar years.

 o    The borrower’s ratio of net utility to long-term debt is
      at least 1.1 based on year-end data for the most recent
      calendar year for which data is available.

 o    The borrower’s equity is equal to at least 27 percent of
      its total assets, based on year-end data for the most
      recent year for which data is available.




USDA/OIG-A/09601-1-Te                                         Page 4
                            MARCH 2000
 A listing of borrowers who qualified for this exemption was
 published in Federal Register on September 21, 1995. A total of
 590 of the 738 (80 percent) electric distribution cooperatives and
 3 of 49 electric generation cooperatives were listed as exempt. RUS
 officials stated that this listing has not changed since it was
 published in the Federal Register.

 We performed this review of borrowers’ investments to determine if
 the intent of Congress was achieved.      We analyzed investments,
 loans, and loan guarantee information reported to RUS by electric
 borrowers for CY 1997 in addition to reviewing current RUS policies
 and procedures.   As of December 31, 1997, there were 798 active
 electric generation and distribution borrowers with outstanding
 direct and guaranteed loan balances totaling $55.8 billion of which
 787 borrowers reported financial information to RUS for CY 1997.

                           The  audit objectives were to determine
OBJECTIVES                 the extent of electric generation and
                           distribution borrowers’ investments and
                           the extent that those investments were in
                           rural development projects.

                           We      obtained    electric    borrowers’
   SCOPE                    financial information for CY 1997 from
                            the RUS National Office in Washington,
                            D.C.    We analyzed Forms 12a, Operating
                            Reports - Financial, and Forms 12h,
 Operating Reports - Annual Supplement, as of December 31, 1997, for
 electric generation borrowers. Forms 12a and 12h were reviewed for
 the 49 electric generation borrowers that provided these reports to
 RUS for CY 1997. For electric distribution borrowers, we reviewed
 Forms 7,   Financial   and   Statistical   Report,   and   Forms 7a,
 Investments, Loan Guarantees and Loans - Distribution, as of
 December 31, 1997.    Forms 7 and 7a were reviewed for a random
 statistical sample of 100 of the 738 electric distribution borrowers
 that provided these reports to RUS for CY 1997. The random sample
 of distribution borrowers was divided into two strata consisting of
 50 borrowers who were exempted and 50 borrowers who were not
 exempted from obtaining prior approval from RUS to invest over
 15 percent of TUP value. See exhibit I for the statistical sample
 design.

 We did not visit the selected borrowers to validate the information
 reported to RUS on the forms 7, 7a, 12a, and 12h. RUS loan funds
 are audited by RUS field auditors approximately every 3 years and
 the borrowers’ financial statements are certified annually by
 certified public accountants. The RUS National Office staff also
 reviews and makes adjustments and corrections to the information
 submitted annually by the electric borrowers.        Therefore, we
 accepted the information as reported by the borrowers and reviewed
 and/or amended by RUS personnel for the purpose of this audit. The
 fieldwork for this audit was performed during the period September
 1998 through May 1999.

 This audit was performed in accordance with the Government Auditing
 Standards issued by the Comptroller General of the United States.
 Accordingly, the audit included such tests of program and accounting
 records as considered necessary to meet the audit objectives.




 USDA/OIG-A/09601-1-Te                                        Page 5
                             MARCH 2000
                             To  accomplish the audit objectives, we
METHODOLOGY                  relied on testimonial, documentary, and
                             analytical evidence which consisted of
                             (1) a review of RUS regulations, polices,
                             procedures   and interviews    with   RUS
  personnel regarding borrower investments, (2) a review of RUS
  instructions to borrowers for completion of forms 7, 7a, 12a and
  12h, (3) a review of 49 electric generation borrowers’ forms 12a and
  12h submitted to RUS for CY 1997, (4) a review of 100 sampled
  electric distribution borrowers’ forms 7 and 7a submitted to RUS for
  CY 1997, and (5) computation of total investments reported for the
  49 electric generation borrowers and the random sample of
  100 electric distribution borrowers. We also contacted two electric
  borrowers to obtain an understanding of the borrowers’ reported
  investments.




   USDA/OIG-A/09601-1-Te                                       Page 6
                               MARCH 2000
        FINDINGS AND RECOMMENDATIONS



CHAPTER 1.   RE ACT AMENDMENTS HAVE NOT FOSTERED
             RURAL DEVELOPMENT INVESTMENTS



                                  RUS electric generation and distribution
                                  borrowers    did   not   increase    their
    BORROWERS NOT                 investment portfolio in rural development
      INVESTING IN                as intended by Congress when it amended
                                  the RE Act to increase the amount of
  RURAL DEVELOPMENT               investments, loans, and loan guarantees
                                  that   electric   borrowers   could   make
                                  without prior approval of RUS. Electric
                                  borrowers have taken advantage of the
       FINDING NO. 1              15 percent investment rule; however, they
                                  have not invested in rural development
                                  projects.     We statistically estimated
        that of the $10.9 billion in investments reported by 787 borrowers
        in CY 1997, only 90 borrowers reported about $61 million in rural
        development investments (about one-half of 1 percent of the reported
        investments).

        In addition, RUS regulations exempt financially strong borrowers who
        charged reasonable kilowatt rates from the 15 percent limit. This
        exclusion applies to about three-fourths of all borrowers.
        Regulations also permitted other borrowers to exclude certain safe
        type investments from the limit. Therefore, when we included all
        investments in computing the percent of investments to total utility
        plant (TUP) value, we found that almost half of the electric
        borrowers had total investments, loans, and loan guarantees in
        excess of 15 percent of TUP. We statistically estimated that 358 of
        the 787 borrowers had investments in excess of 15 percent of TUP.

        In December 1987, Congress amended the RE Act by adding the
        following under Section 312, Use of Funds:      "A borrower of an
        insured or guaranteed electric loan under this Act may, without
        restriction or prior approval of the Administrator, invest its own
        funds or make loans or loan guarantees, not in excess of 15 percent




        USDA/OIG-A/09601-1-Te                                        Page 7
                                    MARCH 2000
       of its total utility plant [TUP]."4 The Congressional intent for
       allowing borrowers to invest up to 15 percent of their TUP was to
       permit borrowers to invest in rural development within their local
       communities.   However, the law as written did not mention rural
       development.   The law stated that REA (now RUS) was to approve
       borrower investments, loans, and loan guarantees that exceed
       15 percent of TUP. Prior to December 1987, borrowers were allowed
       to make investments, loans, and loan guarantees up to 3 percent of
       TUP without REA approval by a contractual limit clause incorporated
       into the mortgage agreement with REA.

       In his opening statements for the May 1991 REA hearings before the
       Subcommittee on Conservation, Credit, and Rural Development,
       Committee on Agriculture, House of Representatives, the chairman of
       the subcommittee stated that it was not the intent of Congress that
       the agency divorce itself as to how those funds are invested, where
       they are invested, and having knowledge of those investments since
       all borrower assets are collateral for agency loans. The chairman
       stated that Congress would expect, as any prudent lender would, that
       the agency would keep track of where those borrower investments are,
       what kind of investments they are, how secure they are, and whether
       they are in keeping with the intent of Congress. The chairman also
       stated that Congress intended for the borrowers to become actively
       involved in rural development.

       INVESTMENTS IN RURAL AREAS
       A review of the Congressional hearing and legislative history of
       section 312 of the RE Act, shows that the intent of Congress was to
       reduce the restriction on investments by electric borrowers and to
       stimulate the rural economy by increasing investments in rural
       development projects.    This was accomplished by increasing the
       3 percent imposed by their mortgage agreement with the Government on
       investment of their funds by permitting borrowers the liberty to
       invest more of their funds in rural development projects that help
       their local communities. The legislative history to change the law
       stated:

              This   3 percent    limitation    is   an    undue   and
              counterproductive restriction on REA borrowers.      REA
              borrowers have played a critical role in the economic
              development of rural areas for over 50 years. However,
              today rural America faces the challenge of rebuilding
              its economic base after several years of agriculture
              depression. Rebuilding a more diversified economy in
              rural communities will require creative approaches,
              technical assistance, and new financial resources.
              Permitting this increase from 3 percent to 15 percent of
              an electric borrower’s total utility plant is a small
              incremental contribution to that rebuilding effort and
              should not in any way put Government funds or security
              at risk.




4
 RE Act, Section 312, Use of Funds, dated December 22, 1987.



       USDA/OIG-A/09601-1-Te                                             Page 8
                                          MARCH 2000
Another statement says:

      Borrowers from REA electric loan program are now
      prohibited administratively from making their fullest
      contribution to the communities they serve. Under the
      agency’s present policy, electric borrowers are not
      permitted to invest more than 3 percent of their own
      funds for "non-Act" purposes, i.e., facilities or
      projects not required to provide electricity to rural
      consumers.   Because of this restriction which is not
      statutorily imposed, rural electric borrowers are
      restricted in their ability to make needed investments
      in rural community infrastructure projects (such as
      water and waste systems, garbage collection services,
      etc.) and in job creation activities (such as providing
      technical, financial, managerial assistance and other
      activities) to promote business development in rural
      communities.

The record clearly indicates that one of the primary purposes of
increasing the statutory investment rule was for increasing the
funds available for rural development projects and to promote the
ability of electric borrowers to improve the rural areas they serve.

We found that only 18 of the 149 borrowers that we reviewed
(4 generation and 14 distribution borrowers) reported investments in
rural development. Total investments, loans, and loan guarantees
for the 149 borrowers reviewed totaled almost $5 billion while rural
development investments totaled about $33 million (0.07 percent).
See exhibit B for a list of the 18 borrowers that we reviewed who
reported investments in rural development.

Electric borrowers reported investments such as patronage capital,
U.S. Treasury notes, stocks and bonds, money market certificates,
certificates of deposit, commercial paper, cash, capital term
certificates, real estate, and mutual funds.      For example, one
distribution borrower (NM023) reported investments of $43.4 million
of which about $78,000 (0.2 percent) was in rural development.
Another distribution borrower (VA055) reported investments of
$127.6 million of which none was in rural development.          See
exhibit L for the investments reported by these borrowers.

We discussed investment practices with the president and
vice-president, finance, for a large electric distribution borrower
located in the suburb of Washington, DC (VA 055). Although this
borrower owed RUS $129 million, the cooperative held $127.6 million
in investments (39 percent of TUP), none of which was classified as
rural development.




USDA/OIG-A/09601-1-Te                                           Page 9
                            MARCH 2000
               The chart below shows the relationship of the borrower’s loan
               balance and its investment portfolio. (See exhibit L for investment
               details.)




               According   to  the   president,   the  cooperative   has  limited
               opportunities to invest in rural development primarily because of
               its location in a rapidly growing suburban community. In selecting
               investment opportunities, the cooperative attempts to provide a
               financial return that maximizes financial benefits to its members.
               While willing to invest in rural America, the cooperative does not
               actively seek such opportunities.

               Based on the results of our review, we statistically estimated that
               the 787 electric generation and distribution borrowers in the sample
               universe reported investments totaling $10.9 billion of which about
               90 borrowers reported about $61 million in rural development
               investments (about one-half of 1 percent of total investments). See
               exhibits I and J for the statistical sample design and projections.

               INVESTMENTS IN EXCESS OF 15 PERCENT
               RUS regulations5 implementing section 312 of the RE Act allows
               borrowers to make unlimited investments in certain areas (such as
               safe investments in securities or deposits fully insured by the
               U.S. Government) and to exclude those investments from the
               computation of the percent of investments to TUP. Also, certain
               borrowers were given blanket approval to invest more than 15 percent
               of TUP. Borrowers who were current on their RUS mortgage, appear to
               have the ability to continue to pay its debt, and do not charge
               their customers an excessive amount were classified as "exempt"
               borrowers. Exempt borrowers were given blanket approval to invest
               more than 15 percent of TUP without prior approval. (See Background
               for details regarding excludable investments.)




      5
        Title 7, Code of Federal Regulations, Part 1717, subpart N, Investments, Loans, and
Guarantees by Electric Borrowers, dated July 1, 1991.



               USDA/OIG-A/09601-1-Te                                                      Page 10
                                                  MARCH 2000
RUS policy instructs borrowers to classify their investments into
two types:   Excludable and includable.    "Excludable" investments
(which are considered safe) are not to be used in the computation of
the percent of investments to TUP. RUS policy provides that when
borrowers compute the percent of investments to TUP, only
"includable" investments and the balance of any guaranteed loans are
to be considered. As a result, only a portion of the borrowers’
investments are used to calculate the investment to TUP ratio.

In CY 1997, 6 of the 149 borrowers that we reviewed (3 exempt and
3 nonexempt) reported that they exceeded 15 percent of TUP when
using the RUS methodology for computing the investment to TUP ratio.
The average total investment to TUP ratios for the 49 generation,
50 nonexempt distribution, and 50 exempt distribution borrowers that
we reviewed were 5.19, 3.75, and 3.50 percent, respectively, using
RUS’ calculation methodology.      The overall average for these
149 borrowers (per the RUS methodology) was less than 5 percent
(about 3.9 percent). See exhibits C, E, and G for the investment to
TUP ratios for the 149 borrowers in our sample.

However, if all investments, loans, and loan guarantees are
considered, the average ratios for the 49 generation, 50 nonexempt
distribution, and 50 exempt distribution borrowers that we reviewed
were 22.59, 13.55, and 16.89 percent, respectively (as computed by
OIG). See exhibits D, F, and H for the 65 borrowers in our sample
whose total investments exceeded 15 percent of TUP.

In addition, when all investments, loans, and loan guarantees were
considered, 65 of the 149 electric generation and distribution
borrowers that we reviewed (27 exempt and 38 nonexempt) had
investments, loans, and loan guarantees in excess of 15 percent of
TUP. We found that 24 of the 49 electric generation borrowers and
41 of the 100 sampled electric distribution borrowers exceeded
15 percent of TUP. The average investment to TUP ratio for these
65 borrowers was 26 percent. (Note: These percentages are actual
for the 149 borrowers that we reviewed and are not statistical
estimates for the total universe of 787 electric borrowers.)

Based on the data for the 149 borrowers reviewed, we statistically
estimated that 358 of the 787 (sampling precision of 20.5 percent)
electric borrowers in our sample universe (24 of the 49 electric
generation borrowers and an estimated 334 of the 738 electric
distribution borrowers) exceeded 15 percent of TUP when total
investments (both "includable" and "excludable"), loan balances, and
guaranteed loan balances reported for CY 1997 were used to calculate
the percent of investment to TUP. Our best (midpoint) estimate was
that these 358 borrowers had total investments, loans, and loan
guarantees   totaling    $7.4 billion    (sampling   precision    of
52.7 percent) of which $3.2 billion was in excess of 15 percent of
TUP (sampling precision of 71.8 percent).       (We are 95 percent
certain that these 358 borrowers had investments totaling at least
$4.7 billion of which at least $1.6 billion was in excess of
15 percent of TUP.)




USDA/OIG-A/09601-1-Te                                       Page 11
                            MARCH 2000
We found that the actual investment to TUP ratio was 26 percent for
the 24 generation borrowers that reported investments in excess of
15 percent (see exhibit D).    We statistically estimated that the
percent   investment  to   TUP   ratio  was   23 percent  for   the
334 distribution borrowers who reported investments in excess of
15 percent of TUP. See exhibit J for the statistical estimates.

Figure 1 below illustrates the estimated investments, loans, and
loan guarantees that were included and excluded by these
358 borrowers when computing investments as a percent of TUP.
(Figure values may not total due to rounding and statistically
projected values.)




USDA/OIG-A/09601-1-Te                                      Page 12
                            MARCH 2000
   Figure 1:    Investments, Loans, and Loan Guarantees for the
                Estimated 358 Electric Generation and Distribution
                Borrowers That Had Total Investments in Excess of
                15 Percent of TUP Value During CY 1997

   (billions)

  $10 |                                                       |
      |                                                       |
   $9 |                                                       |
      |                                                       |
   $8 |                           $7.4                        |
      |                          TTTTTT                       |
   $7 |                          TTTTTT                       |
      |                $5.7      TTTTTT                       |
   $6 |               EEEEEE     TTTTTT                       |
      |               EEEEEE     TTTTTT                       |
   $5 |               EEEEEE     TTTTTT                       |
      |               EEEEEE     TTTTTT     $4.2              |
   $4 |               EEEEEE     TTTTTT    PPPPPP             |
      |               EEEEEE     TTTTTT    PPPPPP    $3.2     |
   $3 |               EEEEEE     TTTTTT    PPPPPP   YYYYYY    |
      |               EEEEEE     TTTTTT    PPPPPP   YYYYYY    |
   $2 |    $1.6       EEEEEE     TTTTTT    PPPPPP   YYYYYY    |
      |   IIIIII      EEEEEE     TTTTTT    PPPPPP   YYYYYY    |
   $1 |   IIIIII      EEEEEE     TTTTTT    PPPPPP   YYYYYY    |
      |   IIIIII      EEEEEE     TTTTTT    PPPPPP   YYYYYY    |
    0 |   IIIIII      EEEEEE     TTTTTT    PPPPPP   YYYYYY    |

          Invest-     Invest-    Total     15%      Invest-
          ments       ments      Invest-   of TUP   ments
          Included    Excluded   ments              Over
          in RUS      in RUS                        15%
          Percent     Percent                       of TUP
          of TUP      of TUP
          Compu-      Compu-
          tation      tation


Specific details for the electric generation and distribution borrowers
are discussed separately in exhibit K.

RUS does not measure the amount of borrower investments in rural America
as part of its Government Performance Review Act (GPRA) process. Given
the level of Congressional interest in stimulating such investments, and
given the relatively low level of accomplishment to date, the agency
should begin measuring increases in rural investments as part of the GPRA
process.




   USDA/OIG-A/09601-1-Te                                          Page 13
                                  MARCH 2000
RECOMMENDATION NO. 1

                               Develop and implement a strategy to
     encourage electric borrowers to make discretionary investments in
     rural areas as intended by Congress.

     RUS Response
     In his February 28, 2000, written response to the draft report, a
     copy of which is included as exhibit M, the RUS Assistant
     Administrator for Electric Programs stated that RUS developed
     policies and procedures strictly adhering to the letter of the law
     regarding Section 312, Use of Funds, of the RE Act. The Assistant
     Administrator said no restrictions were placed on the type of
     investments, loans, or loan guarantees that borrowers could make due
     to the fact that no restrictions were included in the legislation.
     RUS attempts to influence borrowers by stating in the regulations
     (Title 7, CFR 1717, subpart N, General Section) that electric
     borrowers are encouraged to utilize their own funds to participate
     in the economic development of rural areas, provided such activity
     does not in any way put Government funds at risk or impair a
     borrower’s ability to repay its indebtedness to RUS and other
     lenders.

     The Assistant Administrator stated that many borrowers are investing
     in rural development projects, but may not classify them as rural
     development investments on the Forms 7a and 12h submitted to RUS.
     Many borrowers may be confused with the designations of "included"
     and "excluded" and may not correctly classify "excluded" rural
     economic development projects as rural development investments. By
     not including these "excluded" rural development investments, the
     amount of borrower investments in rural development is reduced, thus
     increasing the perception that borrowers are not addressing the need
     identified by Congress.

     The Assistant Administrator agreed that electric borrowers should be
     making a conscious effort to provide for and facilitate rural
     development in these areas. RUS assumes that borrowers will use the
     latitude afforded them by Section 312 of the RE Act to make needed
     investments in rural community infrastructure projects. RUS will
     strategically develop and implement policies and procedures to
     strongly encourage borrowers to meet the intent of Congress. As
     part of this process, RUS will review the instructions for Form 7a
     and 12h in an effort to clarify any inconsistencies in identifying
     "included" and "excluded" rural development projects. This will be
     a top priority for fiscal year 2001.




     USDA/OIG-A/09601-1-Te                                       Page 14
                                 MARCH 2000
     OIG Position
     We agree with RUS’ corrective action plan to strategically develop
     and implement policies and procedures to strongly encourage
     borrowers to meet the intent of Congress regarding investments in
     rural development.     To reach agreement with RUS’s management
     decision, we request additional documentation showing the specific
     actions taken or planned to accomplish this goal and the specific
     timeframe(s) within which the actions will be completed. We also
     agree that these actions should be given top priority because such
     actions are in agreement with the Secretary’s initiative of "keeping
     rural America alive" so that residents, even those who are not
     involved in production agriculture, will still want to stay in rural
     America. In addition, such actions should be initiated as soon as
     possible this fiscal year in order for the action plan to be
     implemented and given top priority in fiscal year 2001.


RECOMMENDATION NO. 2

                                Include in RUS’ annual GPRA plan a
     performance measure to assess the increase in borrowers’ investments
     in rural America.

     RUS Response
     In his written response to the draft report, the Assistant
     Administrator for Electric Programs stated that RUS recognizes the
     concept and believes it to be very important to quantify activity
     using measurable and verifiable means to judge the accomplishment of
     agency goals and objectives.       However, with respect to this
     particular type of discretionary investing, RUS is of the firm
     opinion that additional consideration must be given to the original
     intent of the RE Act and loan security in this time of evolutionary
     change in the electric utility industry.

     The Assistant Administrator said electric industry restructuring
     efforts are advancing across America ushering in a competitive
     retail marketplace. States are enacting restructuring legislation
     or comprehensive restructuring regulatory orders and Congressional
     committees are reviewing proposed Federal legislation. In light of
     this uncertainty, electric utilities are placing a major emphasis on
     controlling expenses in an effort to establish a favorable position
     in rate competitiveness and many utilities are making strategic
     investments to improve system reliability. This transition to a
     competitive marketplace may tend to shrink revenue.        Combining
     shrinking revenue with cost controlling efforts and a renewed
     emphasis on system reliability will minimize the funds available for
     non-utility plant investment.    The quick changing nature of the
     electric utility business is forcing RUS borrowers (and non-borrower
     electric utilities alike) to reevaluate long-term investments,
     whether these investments be in utility plant of community
     development projects.




     USDA/OIG-A/09601-1-Te                                       Page 15
                                 MARCH 2000
The Assistant Administrator said the economic climate and stability
of the electric utility industry has changed dramatically in the
13 years following the approval of this investment legislation. The
uncertainty of the electric utility restructuring efforts combined
with the lagging rural economic recovery and fragile farm economy
mandates that the flexibility provided by the 15 percent investment
rule be maintained without instituting specific program performance
levels.

The Assistant Administrator said encouragement by RUS to continue
community development efforts, at appropriate funding levels
determined by each borrower, is a laudable effort. Such investment
should help build customer/community loyalty which will prove to be
priceless in a competitive environment. However, establishing an
arbitrary target percentage of total utility plant or a specific
number of borrowers making investments in community economic
development will do disservice to the electric program in this time
of regulatory and market change.      While RUS strongly supports
borrower economic development effort, specific RUS directives would
not be prudent at this time, and could take the focus off of rate
competitiveness, reliability, loan security and the long-term
economic health of the borrower and the rural community it serves.
Such action would be contrary to the intent of the RE Act and
Section 312 amendment.

The Assistant Administrator said RUS believes that improvement to
the electric program can be attained by:          (1) Strategically
developing and implementing policies that encourage borrower
investment in rural economic development, (2) reviewing Forms 7a and
12h for proper classification of rural development investments, and
(3) revising current Form 7a and 12h instructions to help borrowers
improve on the tracking of rural economic development projects.

OIG Position
RUS agreed to strategically develop and implement policies and
procedures to strongly encourage borrowers to meet the intent of
Congress regarding investments in rural development (Recommendation
No. 1). In order to evaluate the effectiveness of the actions taken
for Recommendation No. 1, RUS must measure the impact of the
policies and procedures implemented and determine whether rural
development investments increased.    Since the corrective actions
must be measured to determine effectiveness, we continue to believe
such performance measures should be included in RUS’ annual GPRA
plan.    Therefore, we request RUS to reconsider its position
regarding Recommendation No. 2 and include in its annual GPRA plan
a performance measure to assess the increase in borrower’s
investments in rural America.




USDA/OIG-A/09601-1-Te                                       Page 16
                            MARCH 2000
EXHIBIT A - SUMMARY OF MONETARY RESULTS


There are no monetary results being tracked as a result of this audit.




             USDA/OIG-A/09601-1-Te                                       Page 17
                                             MARCH 2000
EXHIBIT B - ELECTRIC BORROWERS’ INVESTMENTS
IN RURAL DEVELOPMENT PROJECTS
                        No.      Borrower ID                        TUP Value   RD Investments        RD Guaranteed Loans            RD Loans              Total RD Investments

    Generation Borrowers

                          1           IA 084                     $251,318,690            $2,732,758                             $0                    $0                 $2,732,758

                          2           KY 062                   $1,537,355,412               $10,000                             $0                    $0                    $10,000

                          3           NC 067                   $1,718,171,021            $1,000,000                             $0          $5,477,408                   $6,477,408

                          4           SD 043                     $113,409,511              $652,985                             $0                    $0                   $652,985

                 Sub Totals                                    $3,620,254,634            $4,395,743                             $0          $5,477,408                   $9,873,151

                    Average                                      $905,063,659            $1,098,936                             $0          $1,369,352                   $2,468,288


  Nonexempt Distribution      Borrower ID                           TUP Value        RD Investments   RD Guarantee Loans                        RD Loans       Total RD Investments

                          5           IA 079                      $17,789,843               $65,954                             $0                    $0                    $65,954

                          6           OR 017                      $33,578,939               $22,395                             $0                    $0                    $22,395

                          7           ND 022                      $36,154,267              $591,033                             $0              $341,970                   $933,003

                          8           ND 050                      $66,756,769            $1,872,841                             $0          $1,874,341                   $3,747,182

                          9           IA 073                      $17,908,918                $6,831                             $0                    $0                     $6,831

                         10           SD 012                      $65,594,786            $5,260,007                  $5,200,192             $1,048,419                  $11,508,618

                         11           KS 044                      $58,716,908              $682,417                             $0                    $0                   $682,417

                         12           SD 020                      $12,591,085               $24,000                    $206,074                       $0                   $230,074

                         13           ND 011                      $87,509,276              $482,711                  $2,796,413                       $0                 $3,279,124

                 Sub Totals                                      $396,600,791            $9,008,189                  $8,202,679             $3,264,730                  $20,475,598

                    Average                                       $44,066,755            $1,000,910                    $911,409                 $362,748                 $2,275,066


     Exempt Distribution      Borrower ID         TUP Value                     RD Investments        RD Guaranteed Loans            RD Loans              Total RD Investments

                         14           KY 021                      $58,074,353              $610,185                             $0                    $0                   $610,185

                         15           MT 031                      $11,646,329              $300,000                             $0                    $0                   $300,000

                         16           SD 036                      $11,052,569              $406,666                             $0                    $0                   $406,666

                         17           AL 025                      $37,260,621              $452,000                             $0                    $0                   $452,000

                         18           KY 034                      $37,343,875              $236,440                             $0              $236,440                   $472,880

                 Sub Totals                                      $155,377,747            $2,005,291                             $0              $236,440                 $2,241,731

                    Average                                       $31,075,549              $401,058                             $0               $47,288                   $448,346


             Grand Total                     18                $4,172,233,172           $15,409,223                  $8,202,679             $8,978,578                  $32,590,480

                                   Borrowers                              TUP   RD Investments        RD Guarantee Loans             RD Loans              Total RD Investments

         Total in Sample                    149               $35,516,183,467           $15,409,223                  $8,202,679             $8,978,578                  $32,590,480

   Average per    Borrower                                       $238,363,647              $103,418                        $55,052               $60,259                   $218,728




                       USDA/OIG-A/09601-1-Te                                                                                                               Page 18
                                                                                      MARCH 2000
      EXHIBIT C - ELECTRIC GENERATION BORROWERS’ TOTAL INVESTMENTS

                                                        Reported Investments

      Borrower                                                                                 Guaranteed         Direct            Total           OIG         RUS             Cash and
No.      ID      TUP Value            Includable             Excludable         Total            Loans            Loans         Investments,       Percent     Percent     Temporary Investments
                                                                                                Balance          Balance         Loans, and
                                                                                                                                 Guarantees

1      AL 042       $840,554,512           $3,150,480             $80,100,070    $83,250,550                $0             $0        $83,250,550        9.90        0.37                     $72,603,583

2     AK 032         $19,441,607             $637,801             $10,460,778    $11,098,579                $0             $0        $11,098,579       57.09        3.28                      $2,919,726

3     AR 032        $421,754,787           $1,267,114             $41,255,755    $42,522,869                $0             $0        $42,522,869       10.08        0.30                     $11,186,325

4     AR 034        $964,235,318          $41,177,125             $87,024,153   $128,201,278                $0             $0       $128,201,278       13.30        4.27                    $109,149,132

5     CO 047       $1,328,283,978        $124,124,502           $100,169,097    $224,293,599                $0             $0       $224,293,599       16.89        9.34                    $111,111,774

6      FL 041       $851,538,229           $4,235,848           $182,024,998    $186,260,846                $0             $0       $186,260,846       21.87        0.50                     $81,595,153

7     GA 109       $5,117,917,703        $157,527,306           $241,439,960    $398,967,266                $0             $0       $398,967,266        7.80        3.08                    $157,796,110

8     GA 110        $902,690,930          $44,407,111               $200,410     $44,607,521                $0             $0        $44,607,521        4.94        4.92                     $34,013,211

9      IL 050       $177,205,623             $195,049              $4,806,913     $5,001,962                $0             $0         $5,001,962        2.82        0.11                      $2,008,177

10     IN 107       $191,093,830          $24,104,217             $18,461,307    $42,565,524                $0             $0        $42,565,524       22.27       12.61                     $25,460,394

11     IA 083       $444,150,112          $23,565,614             $77,198,113   $100,763,727       $1,506,353              $0       $102,270,080       23.03        5.64                     $45,110,303

12     IA 084       $251,318,690           $5,499,751             $22,711,580    $28,211,331                $0             $0        $28,211,331       11.23        2.19                      $6,294,418

13     IA 085        $85,653,963           $2,698,322             $16,992,576    $19,690,898        $448,321               $0        $20,139,219       23.51        3.67                           $221,700

14     IA 086         $9,710,644             $643,600              $4,540,645     $5,184,245                $0             $0         $5,184,245       53.39        6.63                      $1,291,172

15    KS 054        $220,286,113           $5,534,540             $23,913,344    $29,447,884                $0        $9,870         $29,457,754       13.37        2.51                     $15,924,053

16    KY 059       $1,067,789,559         $17,021,061             $91,864,269   $108,885,330                $0      $813,274        $109,698,604       10.27        1.59                     $31,074,541

17    KY 062       $1,537,355,412          $5,086,556             $17,299,721    $22,386,277                $0             $0        $22,386,277        1.46        0.33                     $14,781,911

18     LA 030      $1,199,702,844        $137,822,622             $33,565,653   $171,388,275                $0             $0       $171,388,275       14.29       11.49                     $19,052,747

19    MN 106        $803,415,768          $56,487,725             $56,143,282   $112,631,007                $0      $187,185        $112,818,192       14.04        7.03                      $2,360,898




                                    USDA/OIG-A/09601-1-Te                                                                                          Page 19
                                                                                        MARCH 2000
     EXHIBIT C - ELECTRIC GENERATION BORROWERS’ TOTAL INVESTMENTS

20   MN 107     $999,915,725         $28,629,737    $57,522,826    $86,152,563    $10,334,039   $5,464,226   $101,950,828      10.20    3.90    $43,427,415

21   MS 053     $826,440,344           $467,836     $50,402,912    $50,870,748            $0           $0     $50,870,748       6.16    0.06    $27,852,019

22   MO 059     $136,085,604          $2,296,429    $46,230,645    $48,527,074            $0    $1,757,243    $50,284,317      36.95    1.69     $4,289,650

23   MO 060      $65,942,239           $109,033     $21,749,929    $21,858,962            $0           $0     $21,858,962      33.15    0.17     $4,587,391

24   MO 070      $51,689,196          $3,222,791    $14,925,041    $18,147,832            $0           $0     $18,147,832      35.11    6.23     $2,746,149

25   MO 071     $116,506,667         $18,672,266    $32,421,992    $51,094,258            $0           $0     $51,094,258      43.86   16.03       $44,783

26   MO 072      $35,527,790          $1,363,448    $17,620,369    $18,983,817            $0           $0     $18,983,817      53.43    3.84      $367,478

27   MO 073    $1,312,107,238        $34,329,691   $145,632,144   $179,961,835            $0           $0    $179,961,835      13.72    2.62   $112,221,998

28   MT 040      $23,719,268          $2,382,863    $14,435,498    $16,818,361            $0           $0     $16,818,361      70.91   10.05     $1,918,294

29   NM 018     $568,559,641         $24,334,815    $11,113,739    $35,448,554            $0           $0     $35,448,554       6.23    4.28    $10,033,156

30   NC 067    $1,718,171,021        $35,940,066   $292,134,661   $328,074,727            $0    $5,541,633   $333,616,360      19.42    2.09    $91,936,131

31   ND 020     $208,608,597         $17,561,809            $0     $17,561,809            $0           $0     $17,561,809       8.42    8.42    $16,048,632

32   ND 042      $60,351,090           $369,728     $11,616,588    $11,986,316            $0           $0     $11,986,316      19.86    0.61      $162,181

33   ND 045    $2,118,713,282       $137,326,671   $518,504,651   $655,831,322   $107,426,738    $336,299    $763,594,359      36.04   11.55   $172,918,842

34   ND 048     $461,879,425         $11,697,358            $0     $11,697,358            $0           $0     $11,697,358       2.53    2.53    $10,629,080

35   OK 032     $813,305,911         $32,616,791    $14,999,936    $47,616,727            $0           $0     $47,616,727       5.85    4.01      $185,230

36   SC 050      $63,398,512           $261,891     $60,027,167    $60,289,058            $0           $0     $60,289,058      95.10    0.41    $13,936,298

37   SC 051     $516,467,989          $3,409,756    $66,103,964    $69,513,720            $0           $0     $69,513,720      13.46    0.66    $37,114,440

38   SD 043     $113,409,511         $12,426,423    $24,339,128    $36,765,551            $0    $4,725,936    $41,491,487      36.59   10.96     $4,506,687

39    TX 121    $500,910,495          $5,498,351    $22,135,905    $27,634,256            $0           $0     $27,634,256       5.52    1.10     $1,389,341

40    TX 148     $89,313,789           $191,272     $17,648,711    $17,839,983            $0           $0     $17,839,983      19.97    0.21     $5,541,072

41    TX 154     $68,224,569         $10,744,170     $2,315,410    $13,059,580            $0           $0     $13,059,580      19.14   15.75    $10,794,170

42    TX 155    $453,912,457            $27,621     $29,454,442    $29,482,063            $0           $0     $29,482,063       6.50    0.01    $13,421,185




                                USDA/OIG-A/09601-1-Te                                                                       Page 20
                                                                       MARCH 2000
     EXHIBIT C - ELECTRIC GENERATION BORROWERS’ TOTAL INVESTMENTS

43      TX 158                $107,803,738               $8,463,003     $56,176,647      $64,639,650             $0            $0      $64,639,650       59.96    7.85     $25,064,991

44       IN 106             $1,126,266,347           $57,936,025        $51,921,085     $109,857,110             $0            $0     $109,857,110        9.75    5.14     $38,687,987

45      OR 042                 $62,866,680               $1,704,196      $4,571,821       $6,276,017             $0            $0       $6,276,017        9.98    2.71      $1,099,844

46       WI 064               $636,327,262           $35,722,411        $98,132,891     $133,855,302             $0            $0     $133,855,302       21.04    5.61        $866,833

47      AZ 028                $437,892,794           $36,691,314        $43,909,590      $80,600,904             $0            $0      $80,600,904       18.41    8.38     $37,996,987

48      PA 027                $715,081,364           $37,285,952         $6,974,073      $44,260,025             $0            $0      $44,260,025        6.19    5.21     $22,018,250

49      TX 157*                $23,443,281               $7,545,503      $4,632,108      $12,177,611             $0            $0      $12,177,611       51.94   32.19      $7,553,750


        TOTAL              $30,866,941,448        $1,224,415,564      $2,847,826,497   $4,072,242,061   $119,715,451   $18,835,666   $4,210,793,178                      $1,463,315,592


        Average               $629,957,581           $24,988,073        $58,118,908      $83,106,981      $2,443,172     $384,401      $85,934,555       13.64    4.42     $29,863,584


* Does not include assumed TU Electric note by TX 157.




                                             USDA/OIG-A/09601-1-Te                                                                                    Page 21
                                                                                              MARCH 2000
      EXHIBIT D - ELECTRIC GENERATION BORROWERS’ INVESTMENTS IN
      EXCESS OF 15 PERCENT OF TOTAL UTILITY PLANT VALUE


                                                                           Investments

      Borrower    Insured Debt to                                                                           Guaranteed         Direct             Total         OIG        RUS         Cash and
No.      ID      RUS as of 12/31/97       TUP Value        Includable       Excludable         Total          Loans            Loans          Investments,     Percent    Percent     Temporary
                                                                                                             Balance          Balance          Loans, and                            Investments
                                                                                                                                               Guarantees

1     AK 032                      $0        $19,441,607         $637,801      $10,460,778     $11,098,579                $0             $0       $11,098,579      57.09       3.28        $2,919,726

2     CO 047            $56,934,990       $1,328,283,978   $124,124,502      $100,169,097    $224,293,599                $0             $0      $224,293,599      16.89       9.34      $111,111,774

3     FL 041             $7,885,620        $851,538,229       $4,235,848     $182,024,998    $186,260,846                $0             $0      $186,260,846      21.87       0.50       $81,595,153

4     IN 107            $92,036,491        $191,093,830      $24,104,217      $18,461,307     $42,565,524                $0             $0       $42,565,524      22.27      12.61       $25,460,394

5     IA 083            $68,831,893        $444,150,112      $23,565,614      $77,198,113    $100,763,727     $1,506,353                $0      $102,270,080      23.03       5.64       $45,110,303

6     IA 085             $5,487,614         $85,653,963       $2,698,322      $16,992,576     $19,690,898       $448,321                $0       $20,139,219      23.51       3.67          $221,700

7     IA 086             $2,813,717          $9,710,644         $643,600        $4,540,645     $5,184,245                $0             $0        $5,184,245      53.39       6.63        $1,291,172

8     MO 059            $36,135,487        $136,085,604       $2,296,429      $46,230,645     $48,527,074                $0   $1,757,243         $50,284,317      36.95       1.69        $4,289,650

9     MO 060            $11,766,945         $65,942,239         $109,033      $21,749,929     $21,858,962                $0             $0       $21,858,962      33.15       0.17        $4,587,391

10    MO 070             $5,780,724         $51,689,196       $3,222,791      $14,925,041     $18,147,832                $0             $0       $18,147,832      35.11       6.23        $2,746,149

11    MO 071            $31,214,413        $116,506,667      $18,672,266      $32,421,992     $51,094,258                $0             $0       $51,094,258      43.86      16.03           $44,783

12    MO 072            $11,073,304         $35,527,790       $1,363,448      $17,620,369     $18,983,817                $0             $0       $18,983,817      53.43       3.84          $367,478

13    MT 040             $7,703,556         $23,719,268       $2,382,863      $14,435,498     $16,818,361                $0             $0       $16,818,361      70.91      10.05        $1,918,294

14    NC 067             $7,697,808       $1,718,171,021     $35,940,066     $292,134,661    $328,074,727                $0   $5,541,633        $333,616,360      19.42       2.09       $91,936,131

15    ND 042            $26,983,548         $60,351,090         $369,728      $11,616,588     $11,986,316                $0             $0       $11,986,316      19.86       0.61          $162,181

16    ND 045          $100,370,199        $2,118,713,282   $137,326,671      $518,504,651    $655,831,322   $107,426,738       $336,299         $763,594,359      36.04      11.55      $172,918,842

17    SC 050            $68,396,326         $63,398,512         $261,891      $60,027,167     $60,289,058                $0             $0       $60,289,058      95.10       0.41       $13,936,298




                                       USDA/OIG-A/09601-1-Te                                                                                 Page 22
                                                                                   MARCH 2000
     EXHIBIT D - ELECTRIC GENERATION BORROWERS’ INVESTMENTS IN
     EXCESS OF 15 PERCENT OF TOTAL UTILITY PLANT VALUE

18   SD 043     $47,230,540       $113,409,511     $12,426,423     $24,339,128      $36,765,551             $0     $4,725,936      $41,491,487    36.59   10.96     $4,506,687

19   TX 148      $9,623,214        $89,313,789       $191,272      $17,648,711      $17,839,983             $0            $0       $17,839,983    19.97    0.21     $5,541,072

20   TX 154             $0         $68,224,569     $10,744,170      $2,315,410      $13,059,580             $0            $0       $13,059,580    19.14   15.75    $10,794,170

21   TX 158             $0        $107,803,738      $8,463,003     $56,176,647      $64,639,650             $0            $0       $64,639,650    59.96    7.85    $25,064,991

22   WI 064             $0        $636,327,262     $35,722,411     $98,132,891     $133,855,302             $0            $0      $133,855,302    21.04    5.61      $866,833

23   AZ 028     $14,382,979       $437,892,774     $36,691,314     $43,909,590      $80,600,904             $0            $0       $80,600,904    18.41    8.38    $37,996,987

24   TX 157*            $0         $23,443,281      $7,545,503      $4,632,108      $12,177,611             $0            $0       $12,177,611    51.94   32.19     $7,553,750


     TOTAL     $612,349,368      $8,796,391,956   $493,739,186   $1,686,668,540   $2,180,407,726   $109,381,412   $12,361,111    $2,302,150,249                   $652,941,909


     Average    $25,514,557       $366,516,332     $20,572,466     $70,277,856      $90,850,322      $4,557,559     $515,046       $95,922,927    26.17    7.00    $27,205,913




                              USDA/OIG-A/09601-1-Te                                                                             Page 23
                                                                       MARCH 2000
EXHIBIT E - NONEXEMPT ELECTRIC DISTRIBUTION BORROWERS’ TOTAL
INVESTMENTS


                                                 Investments
                                                                                                                   Total
      Borrower                                                                       Guaranteed     Direct      Investments,                             Cash and
No.      ID        TUP Value                                                           Loans        Loans        Loans, and       OIG        RUS
                                                                                      Balance      Balance       Guarantees      Percent    Percent

                                                                   Total                                                                                  Temporary
                                Includable       Excludable                                                                                              Investments


 1     IA 079     $17,789,843        $247,229        $2,198,903      $2,446,132            $0.00      $65,422       $2,511,554      14.12         1.39        $801,821

2     CO 025      $54,195,389        $808,016        $8,610,042      $9,418,058            $0.00      $12,302       $9,430,360      17.40         1.49      $1,322,370

3     KS 051      $75,039,434       $7,473,871       $2,397,293      $9,871,164            $0.00        $0.00       $9,871,164      13.15         9.96      $3,054,421

4      LA 013    $215,603,476       $2,973,415       $5,776,364      $8,749,779         $333,993        $0.00       $9,083,772       4.21         1.53      $2,028,457

5     ME 012      $28,316,782        $374,329        $1,105,272      $1,479,601            $0.00        $0.00       $1,479,601       5.23         1.32         $70,990

6     CO 035      $21,655,746        $279,668        $3,919,362      $4,199,030            $0.00        $0.00       $4,199,030      19.39         1.29      $1,519,600

7     KS 014      $19,125,094         $79,192        $2,419,516      $2,498,708            $0.00        $0.00       $2,498,708      13.07         0.41      $1,500,258

8     MT 005      $24,569,494       $1,250,122       $2,314,544      $3,564,666            $0.00        $0.00       $3,564,666      14.51         5.09      $1,506,333

9      MI 020     $20,221,483        $144,789        $1,088,782      $1,233,571            $0.00        $0.00       $1,233,571       6.10         0.72        $524,154

10     IN 009     $12,895,472       $3,019,387           $1,000      $3,020,387            $0.00        $0.00       $3,020,387      23.42        23.41        $392,500

11    OR 017      $33,578,939       $1,290,150       $2,600,649      $3,890,799            $0.00        $0.00       $3,890,799      11.59         3.84      $2,906,910

12    KS 057      $29,784,698       $1,468,178         $912,961      $2,381,139            $0.00       $4,340       $2,385,479       8.01         4.93         $73,341

13    ME 016       $1,551,064         $30,809             $0.00            $30,809         $0.00        $0.00          $30,809       1.99         1.99         $13,875

14     TX 080     $14,969,775        $112,375          $788,761        $901,136            $0.00      $18,095         $919,231       6.14         0.75        $283,440

15    ND 022      $36,154,267        $556,512        $3,121,690      $3,678,202            $0.00     $344,495       $4,022,697      11.13         1.54         $67,895




                       USDA/OIG-A/09601-1-Te                                                                          Page 24
                                                                  MARCH 2000
EXHIBIT E - NONEXEMPT ELECTRIC DISTRIBUTION BORROWERS’ TOTAL
INVESTMENTS

16   KS 019    $19,272,458     $360,978    $2,523,250     $2,884,228        $0.00     $89,483     $2,973,711   15.43    1.87    $947,619

17   PA 013    $46,985,583   $3,619,019    $3,891,026     $7,510,045        $0.00        $0.00    $7,510,045   15.98    7.70    $377,248

18   LA 015    $24,531,690   $1,129,335    $2,189,168     $3,318,503        $0.00        $0.00    $3,318,503   13.53    4.60   $2,211,426

19   CO 036    $63,004,664     $189,145    $6,345,585     $6,534,730        $0.00        $0.00    $6,534,730   10.37    0.30   $4,595,214

20   CO 017    $51,631,411     $913,423    $4,515,127     $5,428,550        $0.00      $2,410     $5,430,960   10.52    1.77    $538,040

21   KS 050     $7,420,428     $178,275     $882,216      $1,060,491        $0.00        $0.00    $1,060,491   14.29    2.40    $628,519

22   OR 037     $8,786,782     $140,312     $887,990      $1,028,302        $0.00        $0.00    $1,028,302   11.70    1.60    $722,013

23   AK 026    $10,201,876     $964,078     $715,636      $1,679,714        $0.00        $0.00    $1,679,714   16.46    9.45   $1,164,942

24   ND 029    $52,398,577   $7,155,004   $11,659,700    $18,814,704        $0.00    $273,559    $19,088,263   36.43   13.65    $189,405

25   ND 050    $66,756,769   $4,198,402    $9,945,105    $14,143,507        $0.00   $1,898,877   $16,042,384   24.03    6.29   $2,409,121

26   SC 037    $94,036,542   $2,254,452   $14,420,084    $16,674,536        $0.00   $1,141,407   $17,815,943   18.95    2.40   $6,076,349

27   MN 109   $101,066,499   $6,095,475   $12,571,827    $18,667,302        $0.00    $800,272    $19,467,574   19.26    6.03   $2,464,478

28   MT 016    $19,435,682     $431,954     $693,660      $1,125,614        $0.00        $0.00    $1,125,614    5.79    2.22    $474,348

29   KY 046    $26,754,538   $3,446,136         $0.00     $3,446,136        $0.00        $0.00    $3,446,136   12.88   12.88    $273,831

30   IA 073    $17,908,918     $159,340    $2,744,307     $2,903,647        $0.00      $8,529     $2,912,176   16.26    0.89    $485,217

31   AL 033    $35,346,773        $0.00    $5,756,530     $5,756,530        $0.00        $0.00    $5,756,530   16.29    0.00    $263,885

32   KS 029    $11,991,777     $310,013     $488,614       $798,627         $0.00        $0.00     $798,627     6.66    2.59     $24,274

33   SD 012    $65,594,786   $1,257,240   $13,592,982    $14,850,222   $5,200,192   $1,713,594   $21,764,008   33.18    9.84    $123,704

34   KS 044    $58,716,908   $2,181,373    $3,875,536     $6,056,909        $0.00        $0.00    $6,056,909   10.32    3.72   $2,537,685

35   KS 028    $34,325,179     $513,209    $2,601,658     $3,114,867    $389,485      $11,700     $3,516,052   10.24    2.63   $1,809,290

36   ME 019     $5,673,389     $119,674      $71,627       $191,301         $0.00        $0.00     $191,301     3.37    2.11     $26,072

37   MD 004   $349,981,336   $5,073,031   $10,850,223    $15,923,254        $0.00        $0.00   $15,923,254    4.55    1.45   $1,116,114




                    USDA/OIG-A/09601-1-Te                                                           Page 25
                                                        MARCH 2000
EXHIBIT E - NONEXEMPT ELECTRIC DISTRIBUTION BORROWERS’ TOTAL
INVESTMENTS

38   SD 020      $12,591,085      $373,634      $1,630,875      $2,004,509    $206,074         $0.00     $2,210,583   17.56   4.60     $236,609

39   KS 038      $16,909,395      $316,768      $1,714,631      $2,031,399        $0.00        $0.00     $2,031,399   12.01   1.87     $858,334

40   TN 061      $61,249,982     $1,174,386     $3,547,093      $4,721,479        $0.00        $0.00     $4,721,479    7.71   1.92    $2,471,232

41   MO 035      $15,428,918      $207,224      $4,591,177      $4,798,401        $0.00     $96,060      $4,894,461   31.72   1.34    $1,418,034

42   NM 014      $15,881,523      $202,798      $1,678,687      $1,881,485        $0.00        $0.00     $1,881,485   11.85   1.28     $458,274

43   NE 088      $38,012,039          $0.00     $5,141,596      $5,141,596        $0.00        $0.00     $5,141,596   13.53   0.00     $860,349

44   ND 011      $87,509,276      $627,501      $4,721,324      $5,348,825   $2,796,413    $484,402      $8,629,640    9.86   3.91     $696,772

45   KS 039      $11,360,434      $111,563       $776,144        $887,707         $0.00        $0.00      $887,707     7.81   0.98      $15,591

46   MT 034       $5,328,083      $177,045       $788,531        $965,576         $0.00        $0.00      $965,576    18.12   3.32     $416,858

47   OK 002      $24,512,227      $233,105      $2,794,071      $3,027,176        $0.00     $62,478      $3,089,654   12.60   0.95     $169,790

48   MT 029       $6,892,567      $241,716        $18,112        $259,828         $0.00        $0.00      $259,828     3.77   3.51      $17,547

49   MT 032      $22,873,853      $753,002      $4,402,449      $5,155,451        $0.00        $0.00     $5,155,451   22.54   3.29    $3,624,550

50   KY 064      $21,408,126      $504,201      $1,700,141      $2,204,342    $457,304         $0.00     $2,661,646   12.43   4.49      $69,541


     TOTAL     $2,117,231,029   $65,720,853   $181,981,821    $247,702,674   $9,383,461   $7,027,425   $264,113,560                  $56,838,640


     Average     $42,344,621     $1,314,417     $3,639,636      $4,954,053    $187,669     $140,549      $5,282,271   12.47   3.88    $1,136,773




                      USDA/OIG-A/09601-1-Te                                                                Page 26
                                                             MARCH 2000
EXHIBIT F - NONEXEMPT ELECTRIC DISTRIBUTION BORROWERS’
INVESTMENTS IN EXCESS OF 15 PERCENT OF TOTAL UTILITY PLANT VALUE


No.   Borrower    Insured Debt to     TUP Value                                  Investments                    Guaranteed         Direct            Total         OIG         RUS          Cash and
         ID      RUS as of 12/31/97                                                                               Loans            Loan          Investments,     Percent     Percent
                                                                                                                 Balance          Balance         Loans, and
                                                                                                                                                  Guarantees

                                                       Includable                Excludable       Total                                                                                     Temporary
                                                                                                                                                                                           Investments

1     CO 025             $8,094,187      $54,195,389                  $808,016       $8,610,042     9,418,058                $0      $12,302         $9,430,360       17.40         1.49      $1,322,370

2     CO 035             $8,305,054      $21,655,746                  $279,668       $3,919,362     4,199,030                $0             $0       $4,199,030       19.39         1.29      $1,519,600

3      IN 009            $1,269,821      $12,895,472                $3,019,387           $1,000     3,020,387                $0             $0       $3,020,387       23.42       23.41         $392,500

4     KS 019             $5,438,778      $19,272,458                  $360,978       $2,523,250     2,884,228                $0      $89,483         $2,973,711       15.43         1.87        $947,619

5     PA 013            $18,278,728      $46,985,583                $3,619,019       $3,891,026     7,510,045                $0             $0       $7,510,045       15.98         7.70        $377,284

6     AK 026             $4,074,592      $10,201,876                  $964,078        $715,636      1,679,714                $0             $0       $1,679,714       16.46         9.45      $1,164,942

7     ND 029            $18,009,866      $52,398,577                $7,155,004      $11,659,700    18,814,704                $0     $273,559        $19,088,263       36.43       13.65         $189,405

8     ND 050            $35,237,050      $66,756,769                $4,198,402       $9,945,105    14,143,507                $0   $1,898,877        $16,042,384       24.03         6.29      $2,409,121

9     SC 037            $38,377,542      $94,036,542                $2,254,452      $14,420,084    16,674,536                $0   $1,141,407        $17,815,943       18.95         2.40      $6,076,349

10    MN 109            $33,487,341     $101,066,499                $6,095,475      $12,571,827    18,667,302                $0     $800,272        $19,467,574       19.26         6.03      $2,464,478

11     IA 073            $6,608,451      $17,908,918                  $159,340       $2,744,307     2,903,647                $0       $8,529         $2,912,176       16.26         0.89        $485,217

12     AL 033           $15,145,969      $35,346,773                        $0       $5,756,530     5,756,530                $0             $0       $5,756,530       16.29         0.00        $263,885

13    SD 012            $25,189,622      $65,594,786                $1,257,240      $13,592,982    14,850,222     $5,200,192      $1,713,594        $21,764,008       33.18         9.84        $123,704

14    SD 020             $4,812,234      $12,591,085                  $373,634       $1,630,875     2,004,509       $206,074                $0       $2,210,583       17.56         4.60        $236,609

15    MO 035             $4,676,682      $15,428,918                  $207,224       $4,591,177     4,798,401                $0      $96,060         $4,894,461       31.72         1.34      $1,418,034

16    MT 034               $975,640       $5,328,083                  $177,045        $788,531        965,576                $0             $0         $965,576       18.12         3.32        $416,858

17    MT 032             $9,657,093      $22,873,853                  $753,002       $4,402,449     5,155,451                $0             $0       $5,155,451       22.54         3.29      $3,624,550




                            USDA/OIG-A/09601-1-Te                                                                      Page 27
                                                                     MARCH 2000
EXHIBIT F - NONEXEMPT ELECTRIC DISTRIBUTION BORROWERS’
INVESTMENTS IN EXCESS OF 15 PERCENT OF TOTAL UTILITY PLANT VALUE

   TOTAL     $237,638,650   $654,537,327   $31,681,964   $101,763,883   $133,445,847   $5,406,266   $6,034,083   $144,886,196                  $23,432,525

   Average    $13,978,744    $38,502,196    $1,863,645     $5,986,111     $7,849,756    $318,016     $354,946      $8,522,718   22.14   6.59    $1,378,384




                 USDA/OIG-A/09601-1-Te                                                     Page 28
                                            MARCH 2000
EXHIBIT G - EXEMPT ELECTRIC DISTRIBUTION BORROWERS’ TOTAL
INVESTMENTS


No.   Borrower   TUP Value                              Investments                      Guaranteed Loans         Direct           Total Investments,   OIG Percent     RUS         Cash and
         ID                                                                                  Balance          Loans Balance           Loans, and                       Percent     Temporary
                                                                                                                                      Guarantees                                  Investments

                                      Includable        Excludable        Total

 1     IL 032           $11,008,183         $885,730           $515,626     $1,401,356                  $0             $19,630             $1,420,986          12.91       8.05        $399,411

 2    VA 054           $266,341,837      $12,348,880        $43,266,284    $55,615,164                  $0            $152,310            $55,767,474          20.94       4.64       $9,188,334

 3    SD 040            $26,097,756        $1,936,219        $2,733,132     $4,669,351                  $0             $55,823             $4,725,174          18.11       7.42       $2,408,282

 4    KY 021            $58,074,353         $626,130         $8,971,220     $9,597,350                  $0                    $0           $9,597,350          16.53       1.08       $1,986,355

 5     TN 037           $47,886,867        $3,272,286        $3,369,048     $6,641,334                  $0                    $0           $6,641,334          13.87       6.83       $5,560,690

 6    GA 066            $39,732,798         $237,905         $5,568,623     $5,806,528                  $0                    $0           $5,806,528          14.61       0.60        $318,322

 7    MS 046            $46,295,713         $238,695         $5,783,899     $6,022,594                  $0                    $0           $6,022,594          13.01       0.52       $1,978,594

 8    KY 055            $55,146,487        $1,132,494       $18,472,953    $19,605,447                  $0             $81,261            $19,686,708          35.70       2.05        $962,713

 9    MO 028            $19,995,570          $59,483         $1,847,010     $1,906,493                  $0                    $0           $1,906,493           9.53       0.30        $181,669

10     IL 045           $13,489,784         $412,718         $1,624,348     $2,037,066             $29,166            $151,200             $2,217,432          16.44       3.28       $1,388,862

11    CO 032           $125,199,232        $3,804,585       $16,516,268    $20,320,853                  $0                    $0          $20,320,853          16.23       3.04       $2,658,983

12     AL 044           $52,690,526        $2,540,593        $6,223,481     $8,764,074           $1,429,191             $4,162            $10,197,427          19.35       7.53        $133,686

13    MT 015            $27,057,062         $122,830         $1,798,887     $1,921,717                  $0                    $0           $1,921,717           7.10       0.45       $1,313,557

14    KS 007            $14,758,054         $155,668         $1,651,338     $1,807,006                  $0                    $0           $1,807,006          12.24       1.05        $940,532

15    SD 025            $15,941,302         $287,948         $1,641,579     $1,929,527                  $0             $70,152             $1,999,679          12.54       1.81         $81,415

16    MS 041            $53,770,362        $2,364,349       $11,392,880    $13,757,229                  $0                    $0          $13,757,229          25.59       4.40       $6,422,266

17     TX 065           $49,807,102         $334,233        $12,724,614    $13,058,847            $278,296                    $0          $13,337,143          26.78       1.22       $4,048,307

18    MT 031            $11,646,329         $506,403         $1,437,279     $1,943,682                  $0                    $0           $1,943,682          16.69       4.35       $1,038,937




                 USDA/OIG-A/09601-1-Te                                                                        Page 29
                                                              MARCH 2000
EXHIBIT G - EXEMPT ELECTRIC DISTRIBUTION BORROWERS’ TOTAL
INVESTMENTS

19   MO 032       $9,072,982    $1,825,962    $2,630,207     $4,456,169        $0            $0     $4,456,169   49.11   20.13   $1,932,127

20   MN 018      $31,266,515     $215,515     $3,456,387     $3,671,902        $0        $97,824    $3,769,726   12.06    0.69    $767,379

21   SD 017      $12,162,042     $327,190     $2,044,478     $2,371,668   $608,194        $8,207    $2,988,069   24.57    7.69     $26,520

22   SD 036      $11,052,569     $182,428     $1,892,829     $2,075,257    $37,343           $0     $2,112,600   19.11    1.99    $390,012

23   MT 024      $14,135,531    $1,350,783     $903,975      $2,254,758        $0            $0     $2,254,758   15.95    9.56   $1,851,586

24   MT 033      $22,448,332     $808,660      $988,730      $1,797,390        $0            $0     $1,797,390    8.01    3.60    $975,925

25   NE 077      $70,434,145           $0     $9,607,708     $9,607,708        $0            $0     $9,607,708   13.64    0.00   $5,881,183

26   KS 018      $12,525,194     $689,735     $1,678,258     $2,367,993        $0            $0     $2,367,993   18.91    5.51   $1,247,741

27   AL 025      $37,260,621     $782,946     $3,731,476     $4,514,422        $0       $167,166    $4,681,588   12.56    2.10     $98,087

28   NY 024       $5,033,475      $70,620      $288,781       $359,401         $0            $0      $359,401     7.14    1.40    $153,779

29   NM 008      $27,605,469     $417,263     $1,175,109     $1,592,372        $0       $404,980    $1,997,352    7.24    1.51    $619,313

30   CO 020      $72,232,231     $992,932    $12,651,544    $13,644,476        $0            $0    $13,644,476   18.89    1.37    $327,546

31   NM 023      $83,606,280   $20,070,447   $23,321,995    $43,392,442        $0        $77,906   $43,470,348   51.99   24.01   $6,449,486

32   KS 042       $9,342,838      $98,491      $329,832       $428,323         $0            $0      $428,323     4.58    1.05     $94,254

33   VA 036      $23,351,448     $284,202     $5,510,460     $5,794,662        $0            $0     $5,794,662   24.82    1.22    $145,101

34   PA 015      $52,971,797     $109,992     $4,214,008     $4,324,000        $0            $0     $4,324,000    8.16    0.21    $429,443

35   NC 031      $35,799,954    $1,679,596    $1,426,279     $3,105,875        $0            $0     $3,105,875    8.68    4.69   $1,471,902

36   NY 019      $13,974,743       $3,171      $413,491       $416,662         $0            $0      $416,662     2.98    0.02     $98,724

37   GA 065      $28,200,762     $185,592     $3,910,802     $4,096,394        $0            $0     $4,096,394   14.53    0.66    $245,043

38   SD 023      $14,989,892     $425,872     $2,001,077     $2,426,949   $161,687           $0     $2,588,636   17.27    3.92     $87,577

39   NC 039      $89,544,618    $6,446,310    $2,852,327     $9,298,637        $0            $0     $9,298,637   10.38    7.20   $5,235,295

40   KY 034      $37,343,875     $403,199     $5,515,679     $5,918,878        $0       $236,440    $6,155,318   16.48    1.08    $375,267




              USDA/OIG-A/09601-1-Te                                                  Page 30
                                               MARCH 2000
EXHIBIT G - EXEMPT ELECTRIC DISTRIBUTION BORROWERS’ TOTAL
INVESTMENTS

41   NE 059        $16,610,565      $164,809      $1,963,663     $2,128,472          $0              $0      $2,128,472   12.81   0.99     $1,559,518

42   KY 061        $32,009,872      $119,520      $2,904,945     $3,024,465          $0              $0      $3,024,465    9.45   0.37      $139,242

43   PA 025        $73,246,520     $1,741,516     $8,524,272    $10,265,788          $0       $1,268,771    $11,534,559   15.75   2.38     $2,349,763

44   VA 055       $326,806,784    $23,966,503   $103,656,866   $127,623,369          $0              $0    $127,623,369   39.05   7.33    $49,890,769

45   TN 031        $35,676,603       $38,716      $4,090,420     $4,129,136          $0              $0      $4,129,136   11.57   0.11     $3,108,365

46   KY 035       $128,451,854     $2,195,728     $6,206,834     $8,402,562    $400,000       $2,098,254    $10,900,816    8.49   2.02     $5,084,634

47   TX 069        $47,554,946      $814,941      $9,898,479    $10,713,420          $0              $0     $10,713,420   22.53   1.71     $4,243,315

48   AZ 027       $149,728,165      $509,395     $10,060,161    $10,569,556          $0              $0     $10,569,556    7.06   0.34     $2,724,557

49   TN 060        $38,626,218      $228,430      $4,674,668     $4,903,098          $0              $0      $4,903,098   12.69   0.59      $337,783

50   IN 038        $34,004,853      $347,555      $9,736,306    $10,083,861          $0              $0     $10,083,861   29.65   1.02     $1,377,553

                                                                                                                                         $140,729,704
     TOTAL       $2,532,011,010   $98,765,168   $397,800,515   $496,565,683   $2,943,877      $4,894,086   $504,403,646


     Average       $50,640,220     $1,975,303     $7,956,010     $9,931,314     $58,878         $97,882     $10,088,073   19.92   4.21     $2,814,594




               USDA/OIG-A/09601-1-Te                                                       Page 31
                                                   MARCH 2000
EXHIBIT H - EXEMPT ELECTRIC DISTRIBUTION BORROWERS’ INVESTMENTS
IN EXCESS OF 15 PERCENT OF TOTAL UTILITY PLANT VALUE


                                                                                 Investments                     Guaranteed        Direct         Total Investments,                          Cash and
                                                                                                                   Loans           Loans             Loans, and         OIG        RUS       Temporary
                                                                                                                                                     Guarantees

No.     ID     Insured Loan Balance as of       TUP Value         Includable     Excludable       Total           Balance          Balance                             Percent    Percent    Investments
                        12/31/97

1     VA 054                      $97,994,959      $266,341,837    $12,348,880      $43,266,284    $55,615,164                $0     $152,310            $55,767,474      20.94       4.64       $9,188,334

2     SD 040                      $12,152,278       $26,097,756     $1,936,219       $2,733,132     $4,669,351                $0      $55,823             $4,725,174      18.11       7.42       $2,408,282

3     KY 021                      $22,459,397       $58,074,353       $626,130       $8,971,220     $9,597,350                $0             $0           $9,597,350      16.53       1.08       $1,986,355

4     KY 055                      $14,930,320       $55,146,487     $1,132,494      $18,472,953    $19,605,447                $0      $81,261            $19,686,708      35.70       2.05        $962,713

5     IL 045                       $3,509,059       $13,489,784       $412,718       $1,624,348     $2,037,066         $29,166       $151,200             $2,217,432      16.44       3.28       $1,388,862

6     CO 032                      $54,642,846      $125,199,232     $3,804,585      $16,516,268    $20,320,853                $0             $0          $20,320,853      16.23       3.04       $2,658,983

7     AL 044                      $14,967,501       $52,690,526     $2,540,593       $6,223,481     $8,764,074       $1,429,191        $4,162            $10,197,427      19.35       7.53        $133,686

8     MS 041                      $12,439,701       $53,770,362     $2,364,349      $11,392,880    $13,757,229                $0             $0          $13,757,229      25.59       4.40       $6,422,266

9     TX 065                      $18,058,978       $49,807,102       $334,233      $12,724,614    $13,058,847        $278,296               $0          $13,337,143      26.78       1.23       $4,048,307

10    MT 031                       $2,194,286       $11,646,329       $506,403       $1,437,279     $1,943,682                $0             $0           $1,943,682      16.69       4.35       $1,038,937

11    MO 032                       $3,191,849        $9,072,982     $1,825,962       $2,630,207     $4,456,169                $0             $0           $4,456,169      49.11      20.13       $1,932,127

12    SD 017                       $6,397,434       $12,162,042       $327,190       $2,044,478     $2,371,668        $608,194         $8,207             $2,988,069      24.57       7.69         $26,520

13    SD 036                       $3,507,460       $11,052,569       $182,428       $1,892,829     $2,075,257         $37,343               $0           $2,112,600      19.11       1.99        $390,012

14    MT 024                       $4,295,498       $14,135,531     $1,350,783        $903,975      $2,254,758                $0             $0           $2,254,758      15.95       9.56       $1,851,586

15    KS 018                       $2,504,310       $12,525,194       $689,735       $1,678,258     $2,367,993                $0             $0           $2,367,993      18.91       5.51       $1,247,741

16    CO 020                      $17,591,688       $72,232,231       $992,932      $12,651,544    $13,644,476                $0             $0          $13,644,476      18.89       1.37        $327,546

17    NM 023                      $13,778,864       $83,606,280    $20,070,447      $23,321,995    $43,392,442                $0      $77,906            $43,470,348      51.99      24.01       $6,449,486




                          USDA/OIG-A/09601-1-Te                                                                             Page 32
                                                                          MARCH 2000
EXHIBIT H - EXEMPT ELECTRIC DISTRIBUTION BORROWERS’ INVESTMENTS
IN EXCESS OF 15 PERCENT OF TOTAL UTILITY PLANT VALUE

18   VA 036         $5,142,198     $23,351,448      $284,202      $5,510,460     $5,794,662          $0           $0      $5,794,662   24.82   1.22      $145,101

19   SD 023         $6,438,248     $14,989,892      $425,872      $2,001,077     $2,426,949    $161,687           $0      $2,588,636   17.27   3.92       $87,577

20   KY 034         $9,452,709     $37,343,875      $403,199      $5,515,679     $5,918,878          $0     $236,440      $6,155,318   16.48   1.08      $375,267

21   PA 025        $25,715,424     $73,246,520     $1,741,516     $8,524,272    $10,265,788          $0    $1,268,771    $11,534,559   15.75   2.38     $2,349,763

22   VA 055       $129,068,671    $326,806,784    $23,966,503   $103,656,866   $127,623,369          $0           $0    $127,623,369   39.05   7.33    $49,890,769

23   TX 069        $19,232,837     $47,554,946      $814,941      $9,898,479    $10,713,420          $0           $0     $10,713,420   22.53   1.71     $4,243,315

24   IN 038         $6,430,972     $34,004,853      $347,555      $9,736,306    $10,083,861          $0           $0     $10,083,861   29.65   1.02     $1,377,553


     TOTAL        $506,097,487   $1,484,348,915   $79,429,869   $313,328,884   $392,758,753   $2,543,877   $2,036,080   $397,338,710                  $100,931,088


     Average       $21,087,395     $61,847,871     $3,309,578    $13,055,370    $16,364,948    $105,995      $84,837     $16,555,780   26.77   5.66     $4,205,462




               USDA/OIG-A/09601-1-Te                                                              Page 33
                                                        MARCH 2000
EXHIBIT I - STATISTICAL SAMPLE DESIGN

The general statistical sample design for this audit was a stratified simple
random sampling scheme where electric generation and distribution borrowers were
selected from a data base obtained from the Rural Utilities Service (RUS). There
was a total of 787 electric generation and distribution borrowers in this
universe.    The 787 borrowers were stratified according to the following
subjective criteria:

                                                          STRATA

                  Nonexempt Distribution Borrowers           1

                  Exempt Distribution Borrowers              2

                  Electric Generation Borrowers              3

A sample size of 149 borrowers was selected and subjectively allocated to
Strata 1 through 3 by sampling 50 each in Strata 1 and Strata 2 and selecting all
49 generation borrowers in Strata 3. A summary of the sample design is presented
below.

                                            Number of     Sample
    STRATA                                  Borrowers      Size

      1         Nonexempt Distribution         148           50
                Borrowers

      2         Exempt Distribution            590           50
                Borrowers

      3         Electric Generation               49         49
                Borrowers

                TOTAL                          787          149

The borrowers within Strata 1 and Strata 2 were selected with equal probability
without replacement within each strata. The borrowers in Strata 3 were selected
with probability equal to one.     The sample unit within each strata was a
borrower. A 95 percent lower one-sided confidence level was used for all of the
statistical estimates in this audit.

All statistical analysis was accomplished on a Pentium personal computer using
the Windows version of SAS and SUDAAN.       The statistical estimates used for
projections along with their standard errors were produced with SUDAAN, which
analyzes sample survey data gathered from complex multistage sample designs.
SUDAAN was written by B.V. Shah of Research Triangle Institute, Research Triangle
Park, North Carolina. The sample design and sample selections used in this audit
were determined using SAS.




             USDA/OIG-A/09601-1-Te                                       Page 34
                                         MARCH 2000
EXHIBIT I - STATISTICAL SAMPLE DESIGN

The term sample precision (sp), as used in the report for estimating dollar
values and number of occurrences, is defined as




where

                      t - t factor for a 95% one-sided lower confidence level
                  PTEST - point estimate (estimate of the total)
                 STDERR - standard error of the point estimate

The sample precision for estimating percentage values is defined as




where
                      t - t factor for a 95% one-sided lower confidence level
                 STDERR - standard error of the point estimate (percentage value)




            USDA/OIG-A/09601-1-Te                                        Page 35
                                         MARCH 2000
EXHIBIT J - STATISTICAL PROJECTIONS

The following statistical projections are based on a one-sided 95 percent
confidence level. We are 95 percent certain that the value of the condition is
at least at the lower limit. The midpoint estimate is our best estimate of the
condition.

                                                                            Sampling
                                                                           Precision
      Condition                      Midpoint Estimate    Lower Estimate   (Percent)

 1.    Number of generation and                90                 48            48.6
       distribution borrowers with
       rural investments.

 2.    Number of exempt and nonexempt         334                265            20.5
       distribution borrowers with
       total investments, loans, and
       loan guarantees in excess of
       15 percent of TUP.

 3.    Number of generation and               358                289            20.5
       distribution borrowers with
       total investments in excess of
       15 percent of TUP.

 4.    Ratio of investments to TUP            .23                .20            12.6
       for distribution borrowers
       who had investments in excess
       of 15 percent of TUP.

 5.    Total rural development              $60,976,996         $32,104,139     56.5
       investments of generation
       and distribution borrowers.

 6.    Total investments, loans,        $10,944,532,338      $8,334,447,878     38.8
       and loan guarantees for
       generation and distribution
       borrowers.

 7.    Total investments, loans,         $5,117,459,918      $2,422,544,857     52.7
       and loan guarantees for
       all exempt and nonexempt
       distribution borrowers
       with investments in excess
       of 15 percent of TUP.




              USDA/OIG-A/09601-1-Te                                           Page 36
                                            MARCH 2000
EXHIBIT J - STATISTICAL PROJECTIONS

 8.   Total investments, loans,        $7,419,610,167   $4,724,695,106      52.7
      and loan guarantees for
      generation and distribution
      borrowers with investments in
      excess of 15 percent of TUP.

 9.   Total investments, loans,        $2,216,461,331   $   625,915,161     71.8
      and loan guarantees in
      excess of 15 percent of
      TUP for all exempt and
      nonexempt borrowers.

10.   Total investments, loans,        $3,199,152,787   $1,608,606,617      71.8
      and loan guarantees in
      excess of 15 percent of
      TUP for generation and
      distribution borrowers.

11.   Amount of total investments,     $1,031,051,068   $   416,819,926     59.6
      loans, and loan guarantees
      used to compute the investment
      percent of TUP for exempt and
      nonexempt borrowers who had
      investments in excess of
      15 percent of TUP.

12.   Amount of total investments,     $1,646,532,777   $1,032,301,635      59.6
      loans, and loan guarantees
      used to compute the investment
      percent of TUP for generation
      and distribution borrowers who
      had investments in excess of
      15 percent of TUP.

13.   Amount of total investments,     $3,998,501,925   $1,858,155,984      53.5
      loans, and loan guarantees
      not used to compute the
      investment percent of TUP
      for exempt and nonexempt
      borrowers who had investments
      in excess of 15 percent
      of TUP.




             USDA/OIG-A/09601-1-Te                                        Page 37
                                          MARCH 2000
EXHIBIT J - STATISTICAL PROJECTIONS

14.   Amount of total investments,   $5,685,170,465   $3,544,824,524     53.5
      loans, and loan guarantees
      not used to compute the
      investment percent of TUP
      for generation and
      distribution borrowers who
      had investments in excess
      of 15 percent of TUP.

15.   15 percent of total TUP        $2,917,912,153   $1,679,348,507     42.4
      values for all exempt and
      nonexempt distribution
      borrowers that had total
      investments in excess of
      15 percent of TUP.

16.   15 percent of total TUP        $4,237,370,946   $2,998,807,300     42.4
      values for generation and
      distribution borrowers
      that had total investments
      in excess of 15 percent
      of TUP.




             USDA/OIG-A/09601-1-Te                                     Page 38
                                        MARCH 2000
EXHIBIT K - ANALYSIS OF GENERATION AND
DISTRIBUTION BORROWERS

ELECTRIC GENERATION BORROWERS
Our analysis of REA Forms 12a, "Operating Report-Financial," and Forms 12h,
"Operating Report-Annual Supplement," submitted by 49 electric generation
borrowers for CY 1997 revealed that 24 borrowers had total investments, loan
balances, and guaranteed loan balances in excess of 15 percent of TUP. Total
investments as a percent of TUP for these 24 borrowers ranged from 16.89 percent
to 95.10 percent and averaged 37.04 percent. These 24 borrowers reported TUP
values totaling about $8.8 billion and had total investments, loans, and loan
guarantees of $2.3 billion of which about $982.7 million was in excess of
15 percent of TUP. See exhibit C for the borrowers reviewed and exhibit D for
the borrowers that had investments in excess of 15 percent of TUP.

Figure 2 below illustrates the amount of investments per RUS, total investments
per OIG, 15 percent of TUP, and amount of investments over 15 percent of TUP for
the 24 electric generation borrowers that had investments exceeding 15 percent
of TUP.

    Figure 2:   Twenty-four Electric Generation Borrowers Who Had
                Total Investments in Excess of 15 Percent of TUP

      (billions)

      $5 |                                                        |
         |                                                        |
      $4 |                                                        |
         |                                                        |
      $3 |                          $2.3                          |
         |               $1.8      TTTTTT                         |
      $2 |              EEEEEE     TTTTTT      $1.3               |
         |              EEEEEE     TTTTTT     PPPPPP     $1.0     |
      $1 |    $0.5      EEEEEE     TTTTTT     PPPPPP    YYYYYY    |
         |   IIIIII     EEEEEE     TTTTTT     PPPPPP    YYYYYY    |
       0 |   IIIIII     EEEEEE     TTTTTT     PPPPPP    YYYYYY    |

             Invest-    Invest-     Total      15 %     Invest-
             ments      ments       Invest-    of TUP   ments
             Included   Excluded    ments               Over
             in RUS     in RUS                          15 %
             Percent    Percent                         of TUP
             of TUP     of TUP
             Calcu-     Calcu-
             lation     lation

The following example illustrates how the RUS regulations are applied.         An
electric generation borrower (NC 067) had a TUP value of more than $1.7 billion
and $333.6 million in total investments, loans, and guarantees. We computed the
investment to TUP ratio to be 19.42 percent when all investments, loans, and loan
guarantees are considered. The CY 1997 form 12h submitted by the borrower showed
"includable" investments and guaranteed loan balance totaling $35.9 million. The
investment to TUP ratio per the RUS methodology was 2.09 percent. Investments
totaling more than $292.1 million was not used per the RUS computation
methodology.




             USDA/OIG-A/09601-1-Te                                       Page 39
                                               MARCH 2000
EXHIBIT K - ANALYSIS OF GENERATION AND
DISTRIBUTION BORROWERS

ELECTRIC DISTRIBUTION BORROWERS
We selected a random sample of 100 of the 738 electric distribution borrowers
that submitted Forms 7, "Financial and Statistical Report," and Forms 7a,
"Investments, Loan Guarantees and Loan - Distribution," for CY 1997. The sample
was divided into two strata.     One strata included 50 of the 148 nonexempt
electric distribution borrowers and the other strata included 50 of the
590 exempt electric distribution borrowers. See exhibits E through H for the
borrowers selected for review and exhibit I for the statistical sample design.

We found that 41 of the 100 sampled distribution borrowers (17 of the
50 nonexempt and 24 of the 50 exempt) had made investments, loans, and loan
guarantees in excess of 15 percent of TUP. Based on this data, we statistically
estimated that 334 electric distribution borrowers (approximately 50 nonexempt
and 284 exempt (statisticially rounded)) made investments, loans, and loan
guarantees in CY 1997 that exceeded 15 percent of TUP. We estimated that these
334 distribution borrowers made investments, loans, and loan guarantees totaling
$5.1 billion of which $2.2 billion was in excess of 15 percent of TUP.

Figure 3 below illustrates the projected amount of investments per RUS, total
investments per OIG, 15 percent of TUP, and amount of investments over 15 percent
of TUP for the estimated 334 electric distribution borrowers that had investments
exceeding 15 percent of TUP. (Figure values may not total due to rounding and
statistically projected values.)




            USDA/OIG-A/09601-1-Te                                        Page 40
                                         MARCH 2000
EXHIBIT K - ANALYSIS OF GENERATION AND
DISTRIBUTION BORROWERS

    Figure 3:   Estimated 334 Electric Distribution Borrowers Who
                Had Total Investments in Excess of 15 Percent of TUP

      (billions)

      $6 |                                                        |
         |                          $5.1                          |
      $5 |                         TTTTTT                         |
         |               $4.0      TTTTTT                         |
      $4 |              EEEEEE     TTTTTT                         |
         |              EEEEEE     TTTTTT      $2.9               |
      $3 |              EEEEEE     TTTTTT     PPPPPP              |
         |              EEEEEE     TTTTTT     PPPPPP     $2.2     |
      $2 |              EEEEEE     TTTTTT     PPPPPP    YYYYYY    |
         |    $1.0      EEEEEE     TTTTTT     PPPPPP    YYYYYY    |
      $1 |   IIIIII     EEEEEE     TTTTTT     PPPPPP    YYYYYY    |
         |   IIIIII     EEEEEE     TTTTTT     PPPPPP    YYYYYY    |
       0 |   IIIIII     EEEEEE     TTTTTT     PPPPPP    YYYYYY    |

             Invest-    Invest-     Total      15 %     Invest-
             ments      ments       Invest-    of TUP   ments
             Included   Excluded    ments               Over
             in RUS     in RUS                          15 %
             Percent    Percent                         of TUP
             of TUP     of TUP
             Calcu-     Calcu-
             lation     lation

For example, a nonexempt borrower (SD 012) who exceeded the 15 percent limit had
a TUP value of $65.6 million and "includable" investments of almost $1.3 million
and $5.2 million in guaranteed loan balances computed an investment to TUP ratio
of 9.84 percent using RUS instructions. Our analysis of the CY 1997 form 7a
revealed that the borrower had total investments, loans, and guarantees totaling
over $21.7 million and $1.7 million in loan balances resulting in an investment
to TUP ratio of 33.18 percent.      The borrower had investments, loans, and
guarantee balances that exceeded 15 percent of TUP by more than $11.9 million.

An exempt borrower (VA 054) who had a TUP value of $266.3 million and about
$12.3 million in "includable" investments computed a 4.64 percent investment to
TUP ratio. The CY 1997 forms 7 disclosed that the borrower actually had total
investments, loans, and guarantees of almost $55.8 million and an actual
investment to TUP ratio of 20.94 percent. About $43.3 million in "excludable"
investments were not used in the computation of the percent of investments to
TUP.   The borrower had investments, loans, and guarantees that exceeded
15 percent of TUP by over $15.8 million.




             USDA/OIG-A/09601-1-Te                                      Page 41
                                               MARCH 2000
EXHIBIT L - EXAMPLE ELECTRIC BORROWER
INVESTMENTS

Electric Distribution Borrower NM023 reported the following investments for
CY 1997:

Non-Utility Property:
  Land                                                           $     57,150

Investments in Associated Organizations:
  Patronage Capital TX Electric Cooperative                            108,087
  Patronage Capital CUFC (inactive cooperative financial corp)       1,189,766
  CUFC Capital Term Certificates                                     3,032,820
  Memberships (various)                                                  1,710

Other Investments (bonds and notes):
  Associates Corp (bonds)                                              978,112
  Federal National Mortgage Association                              1,007,560
  Federal National Mortgage                                          1,006,140
  Federal National Mortgage Term                                     1,001,556
  Federal Home Loan Medium Term                                      1,013,125
  Federal Home Loan Bank                                               750,899

Special Funds (certificates of deposit (CD), notes, bonds):
  Queens County Bank (CD)                                               99,000
  New York Federal (CD)                                                 99,000
  Goodnue County Bank (CD)                                              99,000
  Union Chelsea National (CD)                                           99,000
  Fajardo Savings Bank (CD)                                             99,000
  Center National Bank (CD)                                             99,000
  Providian National (CD)                                              100,000
  Rockwood Bank (CD)                                                    99,000
  Federal National Mortgage (note)                                     500,542
  Bellsouth Capital Corp (bond)                                        505,242
  General Electric Capital Corp (bond)                                 310,817
  Federal National Mortgage (note)                                     744,631
  Federal Home Loan (note)                                             700,000
  U.S. Treasury Notes                                                5,371,983
  Wachovia Bank Medium Term                                          1,002,318
  Pitney Bowes Corp                                                    598,218
  Federal Home Loan Mortgage                                           500,000
  Rockwell International Corp                                          993,151
  Du Pont De Nemours                                                 1,009,077
  Bank One Sub Note                                                    991,232
  General Motors Acceptance Corp                                     1,024,974
  Archer Daniels Midland Note                                          996,514
  Wall Mart Note                                                     1,017,981
  J.P. Morgan & Co.                                                  1,035,524
  Federal Home Loan Note                                             1,001,523
  Associates Corp Note                                                 965,059
  AT&T Corp Note                                                     1,017,074
  Pacific Bell Senior Note                                             993,959
  National Rural Coop Finance Corp                                     500,634
  General Electric Capital Corp                                      1,012,940
  Merill Lynch & Co Note                                               991,389
  Ford Motor Co Note                                                 1,016,816
  Excelsior Money Fund                                                  20,431




            USDA/OIG-A/09601-1-Te                                      Page 42
                                          MARCH 2000
EXHIBIT L - EXAMPLE ELECTRIC BORROWER
INVESTMENTS

Cash - General:
  Plains State                                                        113,589
  Lea County State Bank                                               967,519
  Norwest Bank                                                        541,647

Temporary Investments (money market accounts):
  Norwest Financial Senior                                            748,975
  Federal Home Loan Bank                                              500,575
  Federal National Mortgage Association                               999,701
  Estacado Credit Union                                                99,000
  Prudential Money Market                                               2,852
  Edward Jones Money Market                                            37,633
  Solomon Smith Barney Money Market                                    59,509
  Merill Lynch Money Market                                            49,959
  Federal Ginnie Mae                                                2,328,527

Accounts and Notes Receivable:
  Phillips Petroleum Notes                                             17,617
  Energy Research & Development Note                                   43,000
  Leaco Rural Telephone Cooperative                                       215
  Accounts Receivable Employees                                         3,376
  Accounts Receivable Aid-to-Construction                             290,684
  Accounts Receivable-Other                                           483,889
  *Notes Receivable Energy Conservation                                77,906
  Postretirement Benefits                                             264,315

TOTAL INVESTMENTS                                                 $43,392,442


*Reported as a rural development investment.      The notes involved loans to
customers to winterize their homes.

[NOTE:   Total investments as a percent of TUP was 52 percent.]




             USDA/OIG-A/09601-1-Te                                    Page 43
                                         MARCH 2000
EXHIBIT L - EXAMPLE ELECTRIC BORROWER
INVESTMENTS

Electric Distribution Borrower VA055 reported the following investments for
CY 1997:

Investments In Associated Organizations:
  Patronage Capital - NRUCFC                                       $    2,721,520
  Patronage Capital - Old Dominion Electric Cooperative (ODEC)         56,526,972
  Investment in Assoc Co/Land & Bldg/VMDAEC                                71,280
  Other Investment in Organization - NRUCFC                                 1,000
  Investment NRUCFC Capital Term Certificates                           5,973,423
  Investment CSC Services, Inc.                                           113,412
  Investment in Assoc Co - Novastar                                       100,000

Other Investments:
  Patronage Capital Credit - So States                                      3,976
  Patronage Capital Credit - United Utilities                              32,666
  Patronage Capital Credit - Eraco                                          2,867

Special   Funds:
  Other   Special Funds - Mint Plan/Def Comp - DI                         199,754
  Other   Special Funds - Stafford Sub & Lee                               42,720
  Other   Special Funds - Section 457                                     142,007

Cash -   General:
  Cash   General - Crestar                                              1,956,760
  Cash   General - Central Fidelity                                        60,847
  Cash   General - Working Funds                                            3,900

Temporary Investments:
  Temp Invest - NRUCFC                                                 13,268,379
  Temp Invest - ODEC Prepaid Power Bill                                12,748,549
  Temp Invest - Wheat Securities                                       21,556,507
  Temp Invest - Signet                                                    295,827

Accounts & Notes Receivable:
  Notes Receivable - City of Manassas                                     592,000
  Other Accounts Receivable - Net                                       2,344,062
  Accounts Receivable - Sales                                           8,864,941

TOTAL INVESTMENTS                                                  $127,623,369



[NOTE:    Total investments as a percent of TUP was 39 percent.]




              USDA/OIG-A/09601-1-Te                                      Page 44
                                          MARCH 2000
EXHIBIT M - RUS WRITTEN RESPONSE TO THE
DRAFT REPORT




      USDA/OIG-A/09601-1-Te                Page 45
                              MARCH 2000
EXHIBIT M - RUS WRITTEN RESPONSE TO THE
DRAFT REPORT




      USDA/OIG-A/09601-1-Te                Page 46
                              MARCH 2000
EXHIBIT M - RUS WRITTEN RESPONSE TO THE
DRAFT REPORT




      USDA/OIG-A/09601-1-Te                Page 47
                              MARCH 2000
